<html>
<title> - PROTECTING CONSUMER INFORMATION: CAN DATA BREACHES BE PREVENTED?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






    PROTECTING CONSUMER INFORMATION: CAN DATA BREACHES BE PREVENTED?

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2014

                               __________

                           Serial No. 113-115

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                     energycommerce.house.gov
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-611                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                    
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

           Subcommittee on Commerce, Manufacturing, and Trade

                          LEE TERRY, Nebraska
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      JOHN P. SARBANES, Maryland
MARSHA BLACKBURN, Tennessee          JERRY McNERNEY, California
GREGG HARPER, Mississippi            PETER WELCH, Vermont
BRETT GUTHRIE, Kentucky              JOHN A. YARMUTH, Kentucky
PETE OLSON, Texas                    JOHN D. DINGELL, Michigan
DAVE B. McKINLEY, West Virginia      BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  JIM MATHESON, Utah
ADAM KINZINGER, Illinois             JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DONNA M. CHRISTENSEN, Virgin 
BILL JOHNSON, Missouri                   Islands
BILLY LONG, Missouri                 HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio












  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
    Prepared statement...........................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8

                               Witnesses

Edith Ramirez, Chairwoman, Federal Trade Commission..............    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................   153
Lisa Madigan, Attorney General, State of Illinois................    24
    Prepared statement...........................................    26
    Answers to submitted questions \1\...........................   163
William Noonan, Deputy Special Agent in Charge, Criminal 
  Investigations Division, Cyber Operations, United States Secret 
  Service........................................................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   164
Lawrence Zelvin, Director of the National Cybersecurity and 
  Communications Integration Center, Department of Homeland 
  Security.......................................................    46
    Prepared statement...........................................    48
John J. Mulligan, Executive Vice President & Chief Financial 
  Officer, Target Brands Incorporated............................    78
    Prepared statement...........................................    80
    Answers to submitted questions...............................   170
Michael Kingston, Senior Vice President & Chief Information 
  Officer, The Neiman Marcus Group...............................    86
    Prepared statement...........................................    88
    Answers to submitted questions...............................   187
Bob Russo, General Manager, PCI Security Standards Council, LLC..    96
    Prepared statement...........................................    98
    Answers to submitted questions...............................   194
Phillip J. Smith, Senior Vice President, Trustwave...............   104
    Prepared statement...........................................   106
    Answers to submitted questions...............................   199

                           Submitted material

Statement of Credit Union National Association...................   132
Statement of Independent Community Bankers of America............   135
Statement of National Retail Federation..........................   137
Statement of Retail Industry Leaders Association.................   150

----------
\1\ Ms. Madigan did not respond to submitted questions for the 
  record.

 
    PROTECTING CONSUMER INFORMATION: CAN DATA BREACHES BE PREVENTED?

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2014

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room 2123, Rayburn House Office Building, Hon. Lee Terry 
(chairman of the subcommittee) presiding.
    Present: Representatives Terry, Lance, Blackburn, Harper, 
Guthrie, Olson, McKinley, Pompeo, Kinzinger, Bilirakis, 
Johnson, Long, Barton, Upton (ex officio), Schakowsky, 
Sarbanes, McNerney, Welch, Yarmuth, Dingell, Barrow, 
Christensen, and Waxman (ex officio).
    Staff Present: Charlotte Baker, Press Secretary; Kirby 
Howard, Legislative Clerk; Nick Magallanes, Policy Coordinator, 
CMT; Brian McCullough, Senior Professional Staff Member, CMT; 
Gibb Mullan, Chief Counsel, CMT; Shannon Weinberg Taylor, 
Counsel, CMT; Michelle Ash, Minority Chief Counsel; and Will 
Wallace, Minority Professional Staff Member.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. So, good morning everyone, and we have an 
impressive two panels to testify this morning. Our first are 
government witnesses. I will introduce you each as we go down, 
but I want to thank all of you for being here. And the way we 
do it, some of you haven't testified before us before, others 
have, each side has basically 10 minutes of opening statements, 
and then we get right into your testimony, so I will begin my 
opening statement at this time.
    And I just want to thank everyone for being here, and today 
we are turning our focus to an important issue that has 
affected nearly one-quarter of American consumers, a string of 
recent data breaches at nationwide retailers, which resulted in 
the loss of consumer payment card data, personal information 
for millions of consumers. Millions of consumers are seeking 
answers to questions about their personal and financial 
security.
    I am grateful to both Target and Neiman Marcus for agreeing 
to appear before our subcommittee today. It is my hope that 
they will be able to give the subcommittee as clear a view as 
possible of what transpired, what was being done to protect 
consumer information before these breaches, what steps have 
been taken to mitigate the harm to consumers in the wake of 
these breaches, and what more is being done and can be done to 
prevent such breaches in the future.
    We will also hear from public and private entities who 
participated in developing security standards, protecting 
consumer data, and taking enforcement actions against the 
criminals who perpetrate these crime. Our objective today is 
not to cast blame or point fingers. It's just like, just like 
you, don't blame the homeowner whose home is broken into; 
nevertheless, we must ensure that breaches like these do not 
become the new norm.
    Private sector has worked to try and prevent these crimes 
to different degrees, including cooperation with government 
entities. Clearly, there is more that can be done, which is the 
reason for convening this hearing today. Already, the U.S. 
accounts for 47 percent of the fraud credit and debit losses 
worldwide while only accounting for 30 percent of the 
transactions. We need to be realistic and recognize there is no 
silver bullet that is going to fix this issue overnight. If we 
are to seriously address the problem surrounding consumer data 
security, it will take thoughtful and deliberate actions at all 
stages of the payment chain.
    I don't believe we can solve this problem by codifying 
detailed technical standards or with overlaying cumbersome 
mandates. Flexibility, quickness, and nimbleness are all 
attributes that absolutely are necessary in the cybersecurity, 
but run contrary to government's abilities. We must encourage 
the private sector to keep improving on its consensus-driven 
standards which are built to adapt over time changing threats 
to data security.
    While I have more of a statement, I would like to yield to 
Mr. Olson the remainder of the time.
    [The prepared statement of Mr. Terry follows:]

                  Prepared statement of Hon. Lee Terry

    Welcome to our subcommittee's first hearing of 2014 and the 
20th meeting of the 113th Congress.
    Today, we are turning our focus to an important issue that 
has affected nearly one-quarter of American consumers: a string 
of recent data breaches at nationwide retailers, which resulted 
in the loss of consumer payment card data and personal 
information for millions of consumers.
    Millions of consumers are seeking answers to questions 
about their personal and financial security. I'm grateful to 
both Target and Neiman Marcus for agreeing to appear before our 
subcommittee today. It is my hope that they will be able to 
give the subcommittee as clear a view as possible of what 
transpired, what was being done to protect consumer information 
before these breaches, what steps have been taken to mitigate 
the harm to consumers in the wake of these breaches, and what 
more is being done to prevent such breaches in the future.
    We will also hear from public and private sector entities 
who participate in developing security standards, protecting 
consumer data, and taking enforcement actions against the 
criminals who perpetrate these crimes.
    Our objective today is not to cast blame or point fingers--
just like you don't blame the homeowner whose home is broken 
into. Nevertheless, we must ensure that breaches like these do 
not become the ``new normal.''
    The private sector has worked to try and prevent these 
crimes to different degrees, including cooperation with 
government entities. Clearly, there is more than can be done, 
which is the reason for convening today's hearing.
    Already, the U.S. accounts for 47 percent of the fraudulent 
credit and debit losses worldwide, while only accounting for 30 
percent of the transactions.
    We need to be realistic and recognize there is no ``silver 
bullet'' that is going to fix this issue overnight. If we are 
to seriously address the problems surrounding consumer data 
security, it will take thoughtful and deliberate actions at all 
stages of the payment chain.
    I do not believe that we can solve this whole problem by 
codifying detailed, technical standards or with overly 
cumbersome mandates. Flexibility, quickness, and nimbleness are 
all attributes that are absolutely necessary in cyber security 
but run contrary to government's abilities.
    I do believe that information sharing is an area that we 
can be involved with. I would like to explore with our 
witnesses today a role for Congress in information sharing and 
analysis centers (ISACs).
    We must encourage the private sector to keep improving on 
its consensus-driven standards, which are built to adapt over 
time to changing threats to data security.
    There are areas where Congress can take action and lead in 
a way in protecting consumers and combatting fraud. One such 
area is a uniform data breach notification standard. Right now, 
national retailers have to comply with as many as 46 different 
state and territory notification rules, which can slow down how 
quickly a business can notify customers of a breach by creating 
confusion over who must be notified, how they must be notified, 
and when they must be notified. Consumers need to know quickly 
if their information is breached so that they protect 
themselves. I am working on legislation that would foster 
quicker notification by replacing the multiple--and sometimes 
conflicting--state notification regimes with a single, uniform 
federal breach notification regime.
    The security of data itself is paramount in this 
conversation, but as I have said, cumbersome statutory mandates 
can be ill equipped to deal with evolving threats. Nonetheless, 
I think this subcommittee would benefit from hearing about how 
companies are dealing with this issue now, as well as in the 
future.
    I understand that the four largest credit card companies 
have put a deadline of October 1, 2015, for merchants to adopt 
point-of-sale portals that accept EMV-enabled cards--the so-
called chip-and-PIN. I am interested in hearing about how this 
technology could benefit consumers, as well as what Congress' 
role should be with regard to data security in general.
    I look forward to hearing from these stakeholders and 
officials on our panel today and I thank them for appearing.

    Mr. Olson. Thank you, Mr. Chairman, and thank you to our 
witnesses for coming this morning. As you all know, data 
breaches are a very serious matter, and you must remember past 
this issue that regardless of security measures taken to 
protect data, the bad guys are always trying, always trying to 
find new ways to grab that data. We have to be right 24 hours a 
day, 7 days a week, 365 days a year, 366 during leap year, and 
as you have seen, the bad guys can access data in less time it 
takes to swipe a credit card.
    It is a tough battle, but it is a battle we have to fight, 
it is a battle we have to win. As we say in Houston, failure is 
not an option. With that, I yield back, look forward to the 
discussion. Thank you, Mr. Chairman.
    Mr. Terry. Anybody else? Mr. Lance.
    Mr. Lance. Thank you, Mr. Chairman, and I welcome the very 
distinguished panel. The issue of data security has been 
prominent in public debate dating back to at least 2005 when 
160,000 records were acquired by hackers in the Choice Point 
data breach. Over the last 8 years, 660 million records have 
been made public through various data breaches. Data breaches 
occur not just in commercial settings, but also hospitals, 
educational institutions, banks, and insurance companies. There 
is no doubt that every American could be at risk of a data 
breach.
    Since our last data security hearing in July, we have 
learned of several additional data breach incidents that 
occurred in 2013. Data breach incidents at Target, Neiman 
Marcus and Michael's are recent reminders of the dangers data 
breaches present to our economy. In our hearing last July, this 
subcommittee examined the issue of data breach notification; 
namely, what to do when data security has been compromised. 
While that issue is still of paramount concern, equal if not 
more attention should be given to how to prevent data breaches 
from occurring in the first place.
    Major credit card carriers have created a global data 
security standard for businesses that accept payment cards 
called the ``payment card industry data security standard.'' I 
look forward to examining the best practices for today's 
economy and for the safety of the American people.
    Since the Choice Point data breach in 2005, technology has 
evolved considerably. While data hackers' tactics have also 
evolved, so has the potential to provide greater security for 
Americans at risk of a data breach. I am pleased to have before 
us today a distinguished panel from the public and private 
sectors with expertise and personal experience in these issues. 
I look forward to examining the issues before us today. Thank 
you, Mr. Chairman.
    Mr. Terry. The ranking member, Jan Schakowsky, is now 
recognized for her 5 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I am really happy 
that we are having this important hearing on data security. I 
think it is of great concern to the public, who is probably 
watching carefully what happens here. As we discussed 
previously, I hope and expect that we will work together to 
address these issues.
    I thank all of our witnesses for being here, but I would 
like to take a moment to pay special attention and give special 
thanks to my friend, Illinois Attorney General Lisa Madigan, 
who has been at the forefront of this issue since taking office 
in 2003 leading several efforts at the state level to defend 
against cyber crime and prosecute those responsible. She is 
also co-leading an investigation into the Target, Neiman 
Marcus, and Michael's data breaches, and I look forward, as we 
all do, I think, to gaining from her perspective about how we 
can better protect data and inform consumers in the future.
    The threat of data breaches isn't new. The Privacy Rights 
Clearinghouse has identified over 650 million records 
containing consumers' personal information that have been 
compromised through thousands of data breaches since 2005; 
nonetheless, the recent attacks at some of this country's most 
popular retail stores should give us all renewed motivation to 
address data security and breach notification.
    I think every one of our witnesses today and every member 
of the subcommittee wants to make sure that we do everything we 
can to reduce the risk of future massive data breaches. Tens of 
billions of dollars each year are lost to cyber fraud and 
identity theft threatening consumer credit and stretching law 
enforcement resources. The Target breach alone could cost as 
much as $18 billion, and analysts suggest the company itself 
could be on the hook for more than $1 billion in costs from 
fraud. There are also Homeland Security concerns that we, I 
hope, will hear about today.
    It is important to note that there is no foolproof 
regulatory scheme or encryption program to totally prevent data 
breaches. Cyber criminals are incredibly innovative, and as 
soon as we invent and implement new technologies, they are hard 
at work looking for new vulnerabilities. But just because we 
can't absolutely 100 percent guarantee the protection of 
consumer data doesn't mean that we should not do anything. 
There is currently no comprehensive Federal law that requires 
companies to protect consumer or user data, nor is there a 
federal requirement that companies inform their customers in 
the event of a data breach. I believe it is critical that the 
subcommittee move forward with legislation that will ensure 
that best practices are followed at all retailers and that 
consumers are informed as soon as possible after cyber theft is 
discovered. That legislation should be technology neutral, in 
my view, allowing the FTC and other regulatory agencies to 
update requirements at the speed of innovation.
    In the 111th Congress, I was one of four original co-
sponsors of H.R. 2221, the Data Accountability and Trust Act 
data offered by Mr. Rush. The bill was bipartisan, and Chairman 
Emeritus Barton was a co-sponsor. The bill had two main 
provisions. One, an entity holding data containing personal 
information had to adopt what we said were reasonable and 
appropriate security measures to protect such data; and two, 
that same entity had to notify affected consumers in the event 
of a breach. Seems to me that those basic requirements should 
be the basis for data security and breach legislation coming 
out of this committee.
    I want to thank our witnesses for appearing today. I look 
forward to hearing from them about how we can better protect 
against cyber theft in the future and ensure consumers are 
informed as soon as possible when those protections fail, and I 
yield back.
    [The prepared statement of Ms. Schakowsky follows:]

            Prepared statement of Hon. Janice D. Schakowsky

    Thank you Mr. Chairman for holding this important hearing 
on data security and breach notification. As we've discussed 
previously, I hope and expect we will work together to address 
these issues.
    I thank all of our witnesses for being here, but I'd like 
to take a moment to pay a special thanks to my friend, Illinois 
Attorney General Lisa Madigan. She has been at the forefront of 
this issue since taking office in 2003, leading several efforts 
at the state level to defend against cyber crime and prosecute 
those responsible. She is also co-leading an investigation into 
the Target, Neiman Marcus, and Michaels data breaches. I look 
forward to gaining from her perspective about how we can better 
protect data and inform consumers in the future.
    The threat of data breaches isn't new: the Privacy Rights 
Clearinghouse has identified over 650 million records 
containing consumers' personal information that have been 
compromised through thousands of data breaches since 2005. 
Nonetheless, the recent attacks at some of this country's most 
popular retail stores should give us all renewed motivation to 
address data security and breach notification.
    I think every one of our witnesses today and every member 
of this subcommittee wants to make sure that we do everything 
we can to reduce the risk of future massive data breaches. Tens 
of billions of dollars each year are lost to cyber fraud and 
identity theft, threatening consumer credit and stretching law 
enforcement resources. The Target breach alone could cost as 
much as $18 billion, and analysts suggest the company itself 
could be on the hook for more than $1 billion in costs from 
fraud.
    It is important to note that there is no foolproof 
regulatory scheme or encryption program to prevent data 
breaches. Cyber criminals are incredibly innovative, and as 
soon as we invent and implement new technologies, they are hard 
at work looking for vulnerabilities.
    But just because we can't absolutely guarantee the 
protection of consumer data doesn't mean we shouldn't try. 
There is currently no comprehensive federal law that requires 
companies to protect consumer or user data. Nor is there a 
federal requirement that companies inform their customers in 
the event of a data breach.
    I believe it is critical that this subcommittee move 
forward with legislation that will ensure that best practices 
are followed at all retailers and that consumers are informed 
as soon as possible after cyber theft is discovered. That 
legislation should be technology-neutral, allowing the FTC and 
other regulatory agencies to update requirements at the speed 
of innovation.
    In the 111th Congress, I was one of 4 original cosponsors 
of HR 2221, the Data Accountability and Trust Act, offered by 
Mr. Rush. The bill was bipartisan and counted Chairman Emeritus 
Barton as a cosponsor. The bill had two main provisions: (1) an 
entity holding data containing personal information had to 
adopt reasonable and appropriate security measures to protect 
such data; and (2) that same entity had to notify affected 
consumers in the event of a breach. Those basic requirements 
should be the basis for data security and breach legislation 
coming out of this committee.
    Our constituents can't afford another massive data breach 
that threatens their credit and the protection of their 
identity. We owe it to them to take steps to limit the 
likelihood of data breach and ensure that they are informed 
when that happens.
    I thank our witnesses for appearing today, and I look 
forward to hearing from them about how we can better protect 
against cyber theft in the future and ensure that consumers are 
informed as soon as possible when those protections fail.

    Mr. Terry. Mr. Upton, you are recognized for your 5 
minutes, and you control the time.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. The recent data 
thefts of consumer information at well known companies are a 
reminder of the challenges that we certainly face today in a 
digital-connected economy. We are well aware of the benefits to 
consumers and businesses of instant communication and e-
commerce. The rapid evolution of technology allows consumers to 
purchase goods and services on demand whenever and wherever 
they want.
    Despite the many new conveniences and efficiencies, the 
unfortunate reality is that technology also facilitates the 
ability of criminals to commit identity theft or other serious 
crimes that can potentially injure far more consumers. What 
originated as paper based fraud or identity theft gathered from 
a dumpster or mailbox has changed with the times and adapted to 
the Internet and digital economy.
    Today, indeed, most transactions we conduct are either 
transmitted or stored in a connected environment ensuring 
almost every citizen has some digital footprint or profile, and 
that the most sophisticated cyber criminals are successful in 
infiltrating digital databases, they certainly can gain access 
to data on millions of individuals. As long as the risk reward 
payoff is sufficient to attract criminals, the problem will not 
go away.
    Congress recognized the importance of protecting our 
personal information as the crimes of identity theft and 
financial fraud became more pervasive in our economy. It is the 
reason that we enacted laws specifically to address sensitive 
consumer data that can be used by criminals for identity theft 
or financial fraud, including the Gramm-Leach-Bliley Act for 
financial institutions and HIPAA as well for the health care 
industry. Additionally, we have also empowered the FTC to 
address data breaches through the use of section 5 of the FTC 
Act under which they have settled 50 data security cases.
    Federal government is not the only layer of protection. A 
handful of State laws mandates security for the data of their 
citizens, and the private sector has developed extensive 
standards through the PCI Security Standards Council, yet 
breaches, identity theft, financial fraud continue, affecting 
virtually every sector from the federal government to 
merchants, banks, universities, and hospitals. We must consider 
whether the current multi-layer approach to data security, 
federal, state, and industry self-regulation can be more 
effective, or whether we need to approach the issue 
differently.
    In short, the title of today's hearing is an appropriate 
question to ask, ``Can data breaches be prevented?'' This is 
the right venue to discuss what businesses can reasonably do to 
protect data. Equally important, we need to find ways to 
minimize or eliminate the ability of criminals to commit fraud 
with data that they acquire. Americans deserve to have the 
peace of mind that the government, law enforcement officials, 
and private industry are doing everything necessary to protect 
the public from future breaches, and I yield the balance of my 
time to Mrs. Blackburn.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    The recent data thefts of consumer information at well-
known companies are a reminder of the challenges that we face 
in a digital, connected economy. We are well aware of the 
benefits to consumers and businesses of instant communication 
and e-commerce. The rapid evolution of technology allows 
consumers to purchase goods and services on demand--whenever 
and wherever they want. Despite the many new conveniences and 
efficiencies, the unfortunate reality is that technology also 
facilitates the ability of criminals to commit identity theft 
or other crimes that can potentially injure far more consumers.
    1What originated as paper-based fraud or identity theft 
gathered from a dumpster or mailbox has changed with the times 
and adapted to the Internet and the digital economy. Today, 
most transactions we conduct are either transmitted or stored 
in a connected environment, ensuring almost every citizen has 
some digital footprint or profile. If the most sophisticated 
cybercriminals are successful in infiltrating digital 
databases, they can gain access to data on millions of 
individuals. As long as the risk-reward payoff is sufficient to 
attract criminals, the problem will not go away.
    Congress recognized the importance of protecting our 
personal information as the crimes of identity theft and 
financial fraud became more pervasive in our economy. It is the 
reason we enacted laws specifically to address sensitive 
consumer data that can be used by criminals for identity theft 
or financial fraud, including the Gramm Leach Bliley Act for 
financial institutions and HIPAA (Health Information 
Portability and Accountability Act) for healthcare industry 
participants. Additionally, we also have empowered the FTC to 
address data breaches through the use of Section 5 of the FTC 
Act, under which they have settled 50 data security cases.
    The federal government is not the only layer of protection. 
A handful of state laws mandate security for the data of their 
citizens, and the private sector has developed extensive 
standards through the PCI Security Standards Council.
    Yet breaches, identity theft, and financial fraud continue, 
affecting every sector from the federal government to 
merchants, banks, universities and hospitals. We must consider 
whether the current multi-layer approach to data security--
federal, state, and industry self-regulation--can be more 
effective, or whether we need to approach the issue 
differently.
    In short, the title of today's hearing is an appropriate 
question to ask: ``Can Data Breaches be Prevented?'' This is 
the right venue to discuss what businesses can reasonably do to 
protect data. Equally important, we need to find ways to 
minimize or eliminate the ability of criminals to commit fraud 
with data they acquire. Americans deserve to have the peace of 
mind that the government, law enforcement officials, and 
private industry are doing everything necessary to protect the 
public from future breaches.

    Mrs. Blackburn. I thank the chairman, and I want to welcome 
each of you. We are pleased to have you here. Privacy data 
security is something that we are hearing about more and more 
from our constituents. I sum it up by saying my constituents 
want to know who owns the virtual you, which is you in your 
presence online. Who has the rights to that? And I hope that 
from listening to you-all and talking with you today, we can 
gather some information to add to the work that we have been 
doing in our bipartisan privacy data security working group 
here at the committee.
    What our constituents want to do is figure out how to build 
out this toolbox that will allow them to protect themselves 
online. They want to know what you are doing to provide the 
assurance of data security, what are those protocols? They want 
to know what the process will be, a kind of a standard business 
process, for data breach notification. What are the 
expectations? And then they want, both the private sector and 
government, to meet and fulfill those expectations.
    So, you have experience, some lessons learned, you have 
made some mistakes, all of you, you are learning from those 
mistakes, and we are looking at how we take the rules that are 
on the books in the physical space, and apply that to the 
virtual space and encourage commerce and the interaction, 
transaction, and movement of data and commerce. I yield back 
the balance of the time.
    Mr. Terry. Mr. Johnson, you are recognized for 10 seconds.
    Mr. Johnson. Well, thanks. As a 30-year IT professional 
myself before coming to Congress, including a stint as the 
director of the CIO staff for U.S. Special Operations Command, 
I can tell you I understand the complexities of data security 
and how complex it is. I am really looking forward to hearing 
from you folks today on what we can do to position both our 
commercial sector and our public sector to handle this problem.
    Mr. Terry. Thank you. That concludes our time, but before I 
officially recognize him, Mr. Waxman, ranking member of the 
full committee, had made a surprise announcement and stunned 
all of us that he is going to conclude his time with Congress 
at the end of this session, and I just want to thank him for 
his 40 years of service to the United States Congress, to the 
people of California, and the United States, and job well done.
    We may not agree on everything, but you are passionate, you 
are zealous, and you are very involved, and you command respect 
from everybody, Henry. Thank you for your service.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Terry. And you are recognized for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you for your kind words and for holding 
this hearing today. I think this may be the first of a series 
of troubling cyber attacks on prominent retailers that are 
going to tell us today about their experience, and we want to 
evaluate how businesses and government can better protect the 
security of consumers' personal information.
    Late last year, Target, Neiman Marcus, and reportedly 
Michael's all experienced breaches in which criminal intruders 
stole consumers' payment card information leaving them at risk 
for fraudulent charges. The Target breach, which involves not 
only payment card data, but also marketing data that could be 
used in phishing attacks is now reported to affect between 70 
million and 110 million people, roughly one-third of the adult 
U.S. population. Reports indicated that similar attacks have 
likely affected many other retailers as well. Just last week, 
White Lodging, a major hotel operator, announced that he was 
investigating a potential breach affecting thousands of guests 
who stayed at hotels under various brand names, including 
Hilton, Marriott, Sheraton, and Westin. Given these constant 
security threats, I hope that today's hearing will provide us 
with the facts necessary to chart a path forward where 
consumers can be more confident that companies will keep their 
data safe.
    The unprecedented scope and scale of these breaches is 
alarming. It affects the confidence of consumers who rely on 
retailers, banks, and payment card processors and networks to 
safeguard their personal information, including their credit 
card and debit card information. Millions of Americans have had 
to contend with fraudulent charges on their financial 
statements, identity theft schemes in which criminals open 
phony accounts in their names, and the fear and uncertainty 
about how criminals may use their information next.
    There are many unanswered questions about these recent 
attacks, including how they were carried out, and of course, 
who was responsible. These breaches also raise important 
questions about how well the industry polices itself, whether 
these companies responded to early warnings and whether they 
notified consumers in a timely manner. We also need to 
understand the appropriate Federal role in both data security 
and breach notification. Nearly all U.S. States and territories 
now have laws that require notice for their own residents when 
a data breach occurs.
    The effectiveness of these laws vary greatly, but several 
are quite strong, ensuring that consumers receive prompt, 
adequate, and clear notification when their personal 
information is breached, and providing them with resources to 
protect their financial wellbeing. It could be a model for a 
minimum Federal requirement.
    After the fact, breach notification is only half of what is 
needed. The private sector must also take stronger steps to 
safeguard personal information. There could be a Federal rule 
in ensuring they are proactive. There will always be bad actors 
who will try to compromise large databases and obtain sensitive 
information that can be leveraged for financial gain. We need 
to have effective law enforcement to stop them. We also need to 
make sure companies are doing enough to prevent breaches 
because consumers are paying the price. Protecting consumer 
data needs to be priority number 1.
    I look forward to the witnesses' testimony and to our 
discussion today of this important topic. I thank the witnesses 
for being here. I want to apologize in advance because there is 
another subcommittee that is meeting simultaneously with this 
one, and I have to be at that subcommittee as well. But looking 
forward to your testimony. In the short time I have left, is 
anybody on the majority wish to take the 47, -6, -5, -4 seconds 
noted. If not, Mr. Chairman, I yield back.
    Mr. Terry. You said majority. Are you talking----
    Mr. Waxman. Oh, did I say majority? I am always looking to 
the future, Mr. Chairman, and I thank you for your kind words, 
and I, of course, I am going to be here till December so we 
will all be able to work together some more. Thank you.
    Mr. Terry. Very good. Thank you, Henry.
    Now, time to introduce our first panel. Edith Ramirez is 
the chairwoman of the Federal Trade Commission, thank you for 
your second appearance before this committee; Lisa Madigan, 
Attorney General for the State of Illinois, thank you for 
coming; William Noonan, deputy special agent in charge, 
Criminal Investigation Division, Cyber Operations, United 
States Secret Service, and I said it all in one breath. Mr. 
Noonan, thank you for your appearance here today; Lawrence 
Zelvin, director, National Cybersecurity and Communications 
Integration Center, Department of Homeland Security. We always 
go from my left to right, so we will start with Chairman 
Ramirez. You are now recognized for your 5 minutes.

  STATEMENTS OF HON. EDITH RAMIREZ, CHAIRWOMAN, FEDERAL TRADE 
   COMMISSION; HON. LISA MADIGAN, ATTORNEY GENERAL, STATE OF 
   ILLINOIS; WILLIAM NOONAN, DEPUTY SPECIAL AGENT IN CHARGE, 
  CRIMINAL INVESTIGATIONS DIVISION, CYBER OPERATIONS, UNITED 
  STATES SECRET SERVICE; AND LAWRENCE ZELVIN, DIRECTOR OF THE 
 NATIONAL CYBERSECURITY AND COMMUNICATIONS INTEGRATION CENTER, 
                DEPARTMENT OF HOMELAND SECURITY

                STATEMENT OF HON. EDITH RAMIREZ

    Ms. Ramirez. Thank you. Chairman Terry, Ranking Member 
Schakowsky, and members of the committee, thank you for the 
opportunity to appear before you to discuss the Federal Trade 
Commission's data security enforcement program. We live in an 
increasingly connected world in which vast amounts of consumer 
data is collected. As recent breaches of Target and other 
retailers remind us, this data is susceptible to compromise by 
those who seek to exploit security vulnerabilities. This takes 
place against the background of the threat of identity theft, 
which has been the FTC's top consumer complaint for the last 13 
years. According to estimates of the Bureau of Justice 
statistics, in 2012, this crime affected a staggering 7 percent 
of all people in the United States age 16 and older.
    The Commission is here today to reiterate its bipartisan 
and unanimous call for Federal data security legislation. Never 
has the need for such legislation been greater. With reports of 
data breaches on the rise, Congress needs to act. We support 
legislation that would strengthen existing data security 
standards and require companies, in appropriate circumstances, 
to notify consumers when there is a breach. Legislation should 
give the FTC authority to seek civil penalties where warranted 
to help ensure that FTC actions have an appropriate deterrent 
effect.
    It should also provide rulemaking authority under the 
Administrative Procedure Act and jurisdiction over nonprofits, 
which have been the source of a large number of breaches. Such 
provisions would create a strong consistent standard and enable 
the FTC to protect consumers more effectively. Using its 
existing authority, the FTC has devoted substantial resources 
to encourage companies to make data security a priority.
    The FTC has brought 50 civil actions against companies that 
we alleged put consumer data at risk. We have brought these 
cases under our authority to combat effective and unfair 
commercial practices as well as more targeted laws such as the 
Gramm-Leach-Bliley Act and the Fair Credit Reporting Act. In 
all these cases, the touchstone of the Commission's approach 
has been reasonableness. A company's data security measures 
must be reasonable in light of the sensitivity and volume of 
consumer information it holds, the size and complexity of its 
data operations, and the cost of available tools to improve 
security and reduce vulnerabilities.
    The Commission has made clear that it does not require 
perfect security and that the fact that a breach occurred does 
not mean that a company has violated the law. Significantly, a 
number of FTC enforcement actions have involved large breaches 
of payment card information. For example, in 2008, the FTC 
settled allegations that security deficiencies of retailer TJX 
permitted hackers to obtain information about tens of millions 
of credit and debit cards. To resolve these allegations, TJX 
agreed to institute a comprehensive security program and to 
submit to a series of security audits. At the same time, the 
Justice Department successfully prosecuted a hacker behind the 
TJX and other breaches. As the TJX case illustrates well, the 
FTC and criminal authorities share complementary goals.
    FTC actions help ensure, on the front end, that businesses 
do not put their customers' data at unnecessary risk while 
criminal enforcers help ensure that cyber criminals are caught 
and punished. The dual approach to data security leverages 
government resources and best serves the interest of consumers, 
and to that end, the FTC and criminal enforcement agencies have 
worked together to coordinate all respective data security 
investigations.
    The FTC appreciates the work of our fellow law enforcement 
agencies at the Federal and State level. In addition to the 
Commission's enforcement work, the FTC offers guidance to 
consumers and businesses. For those consumers affected by 
recent breaches, the FTC has posted information online about 
steps they should take to protect themselves. These materials 
are in addition to the large stable of other FTC resources we 
have for ID theft victims, including an ID theft hotline. We 
also engage in extensive policy initiatives on privacy and data 
security issues.
    For example, we recently conducted workshops on mobile 
security and emerging forms of ID theft, such as child ID theft 
and senior ID theft.
    In closing, I want to thank the Committee for holding this 
hearing and for the opportunity to provide the Commission's 
views. Data security is among the Commission's highest 
priorities, and we look forward to working with Congress on 
this critical issue. Thank you.
    Mr. Terry. Thank you, Chairman.
    [The prepared statement of Ms. Ramirez follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Terry. Now, the gentlelady from Illinois, Ms. Madigan, 
you are now recognized for 5 minutes.

                 STATEMENT OF HON. LISA MADIGAN

    Ms. Madigan. Thank you, Chairman Terry, Ranking Member 
Schakowsky, and members of the subcommittee, I appreciate 
having an opportunity to testify on this important issue. 
Addressing data breaches and preventing them is critical to our 
financial security and our economy. Over the past decade, we 
have faced an epidemic of data breaches that has affected 
almost every American and has inflicted billions of dollars of 
damage to our economy. Many have become accustomed to their 
occurrence, but the recent Target breach served as a wake-up 
call that government and the private sector need to take 
serious meaningful actions to curb this growing problem.
    To assist the subcommittee, I will explain the impact data 
breaches have on consumers, the role the States play in 
responding to breaches, the data security lapses we have seen 
in the private sector, and the steps that private sector and 
government can take to prevent future breaches.
    Since 2005 there have been over 4,000 data breaches 
nationally and over 733 million records compromised. The amount 
of money lost because of identity theft is also sobering. In 
2012, it was $21 billion. And over the last year alone, the 
number of complaints my office has received on data breaches 
has jumped more than 1,000 percent. When these breaches occur, 
consumers are harmed primarily two ways: First, they are 
exposed to the likelihood of unauthorized charges on their 
existing accounts, and second, they are much more likely to 
become victims of more costly identity theft. Consumers 
affected by breaches must constantly monitor their financial 
accounts for unauthorized charges, and when consumers discovery 
them, clean up requires notifying their credit and debit card 
issuers, closing accounts, canceling cards and waiting for new 
cards to arrive, and for consumers with automatic bill pay, 
alerting companies about the new account numbers to prevent 
late fees, and those are the easy situations.
    Victims of identity theft can spend months reporting 
instances of fraud to creditors and reporting bureaus to 
restore their credit. During this time, these victims are often 
prevented from fully participating in our economy. Identity 
theft takes a variety of forms and while it most commonly 
affects consumers' financial account, identity thieves also use 
consumers' information to open utility accounts and obtain 
medical treatment and prescription drugs. All of these things 
can happen simply because the consumers share their sensitive 
data in the usual course with a business, a medical provider, 
or the government.
    The States have been inundated with consumers who need help 
understanding and recovering from breaches and identity theft 
damage. Because of this, I created an identity theft unit and 
hotline back in 2006. Since then, we have received more than 
40,000 requests for assistance and have helped remove over $26 
million worth of fraudulent charges for Illinois residents. In 
addition to this direct consumer assistance, my office also 
conducts investigations of data breaches.
    To confirm that companies complied with State laws by 
notifying consumers of breaches within a reasonable time, and 
to ensure that companies suffering breaches took reasonable 
steps to protect their consumer sensitive data from disclosure. 
My office, along with the Connecticut AG's office, is currently 
leading multi-State investigations into breaches that affected 
millions of Target and Neiman Marcus and Michael's customers. 
During private breach investigations, we have instances where 
companies failed to take basic steps to protect consumer data. 
So the notion that companies are already doing everything they 
can to prevent breaches is false.
    We have found repeated instances where breaches occurred 
because companies allowed consumer data to be maintained 
unencrypted, failed to install security patches for known 
software vulnerabilities, and retained data for longer than 
necessary. The recent breaches have also led to discussions 
about security technology that was available but not deployed 
for reasons that allegedly ranged from high cost and increased 
checkout times to disputes between banks and retailers.
    Frankly, it is negligent that the United States is behind 
the rest of the world when it comes to the security of our 
payment networks, and it is the main reason that U.S. 
consumers' information is targeted by criminals. It is past 
time for the private sector to take data security seriously. 
Consumers are rapidly losing confidence in companies' ability 
to safeguard their personal information. Based upon our 
experiences at the State level, I recommend the Congress take 
the following actions. First, pass data security and breach 
notification legislation that does not preempt State law. 
Second, Congress should also recognize that the Federal 
Government should assist the private sector in the same manner 
it already does in other critical areas.
    Congress should give an agency the responsibility and 
authority to investigate large sophisticated data breaches in a 
manner similar to NTSB investigations of aviation accidents.
    Finally, please remember that States have been on the front 
lines of this battle for a decade. Illinois residents 
appreciate the important role my office plays, and they are not 
asking for our State law to be weakened by preemption, but they 
are panicked and they are angered the companies are not doing 
more to protect their personal and financial information and 
prevent these breaches from occurring in the first place. I am 
happy to answer any questions you have. Thank you.
    Mr. Terry. Thank you, General Madigan.
    [The prepared statement of Ms. Madigan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. And now, Mr. Noonan, you are recognized for your 
5 minutes.

                  STATEMENT OF WILLIAM NOONAN

    Mr. Noonan. Good morning, Chairman Terry, Ranking Member 
Schakowsky, and distinguished members of the subcommittee. 
Thank you for the opportunity to testify on behalf of the 
Department of Homeland Security regarding the ongoing trend of 
criminal exploiting cyberspace to obtain sensitive, financial, 
and identity information as part of a complex criminal scheme 
to defraud our Nation's payment systems. Our modern financial 
system depends heavily on information technology forconvenience 
and efficiency.
    Accordingly, criminals motivated by greed have adapted 
their methods and are increasingly using cyberspace to exploit 
our Nation's financial payment systems to engage in fraud and 
other illicit activities. The widely reported data breaches of 
Target and Neiman Marcus are just recent examples of this 
trend. The Secret Service is investigating these recent data 
breaches, and we are confident that we will bring the criminals 
responsible to justice.
    However, data breaches like these recent events are part of 
a long trend. In 1984, Congress recognized the risk posed by 
increasing use of information technology and established 18 USC 
sections 1029 and 1030 through the Comprehensive Crime Control 
Act. These statutes define access device fraud and misuse of 
computers as Federal crimes, and explicitly assign the Secret 
Service authority to investigate these crimes.
    In support of the Department of Homeland Security's mission 
to safeguard cyberspace, the Secret Service investigates cyber 
crime through efforts of our highly trained special agents in 
the work of our growing network of 33 electronic crimes task 
forces which Congress assigned the mission of preventing, 
detecting, and investigating various forms of electronic 
crimes.
    As a result of our cyber crime investigations, over the 
past 4 years, the Secret Service has nearly arrested 5,000 
cyber criminals. In total, these criminals were responsible for 
over a billion dollars in fraud losses, and we estimate our 
investigations prevented over a $11 billion in fraud losses. 
The data breaches, like the recent reported occurrences, are 
just one part of a complex criminal scheme executed by 
organized cyber crime. These criminal groups are using 
increasingly sophisticated technology to conduct a criminal 
conspiracy consisting of five parts.
    One, gaining unauthorized access to computer systems 
carrying valuable protected information; two, deploying 
specialized malware to capture and exfiltrate the data; three, 
distributing or selling the sensitive data to their criminal 
associates; four, engaging in sophisticated and distributed 
frauds using the sensitive information that was obtained; and 
five, laundering the proceeds of their illicit activity.
    All five of these activities are criminal violations in and 
of themselves, and when conducted by sophisticated 
transnational networks of cyber criminals, this scheme has 
yielded hundreds of millions of dollars in illicit proceeds.
    The Secret Service is committed to protecting the Nation 
from this threat. We disrupt every step of their five-part 
criminal scheme through proactive criminal investigations and 
defeat these transnational cyber criminals through coordinated 
arrests and seizure of assets. Foundational to these efforts 
are the private industry partners as well as close partnerships 
that we have with State, local, Federal, and international law 
enforcement. As a result of these partnerships, we are able to 
prevent many cyber crimes by sharing criminal intelligence 
regarding the plans of cyber criminals and minimizing financial 
losses by stopping their criminal scheme.
    Through our Department's National Cybersecurity and 
Communications Integration Center, the NCCIC, the Secret 
Service also quickly shares technical cybersecurity information 
while protecting civil rights and civil liberties in order to 
allow organizations to reduce their cyber risks by mitigating 
technical vulnerabilities.
    We also partner with the private sector in academia to 
research cyber threats and publish information on cyber crime 
trends through reports like Carnegie Mellon CERT Insider Threat 
Study, the Verizon Data Breach Study, and the Trustwave Global 
Security Report. The Secret Service has a long history of 
protecting our Nation's financial system from threats. In 1865, 
the threat we were founded to address was that of counterfeit 
currency. As our financial payment system has evolved from 
paper to plastic, now digital information, so, too, has our 
investigative mission. The Secret Service is committed to 
protecting our Nation's financial system even as criminals 
increasingly exploit it through cyberspace. Through the 
dedicated efforts of our electronic crimes task forces and by 
working in close partnerships with the Department of Justice, 
in particular, the criminal division and the local U.S. 
Attorney's offices, the Secret Service will continue to bring 
cyber criminals that perpetrate major data breaches to justice. 
Thank you for the opportunity to testify on this important 
topic, and we look forward to your questions.
    Mr. Terry. Thank you, Mr. Noonan.
    [The prepared statement of Mr. Noonan follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Terry. Mr. Zelvin, you are now recognized for your 5 
minutes.

                   STATEMENT OF LARRY ZELVIN

    Mr. Zelvin. Chairman Terry, Ranking Member Schakowsky, 
distinguished members of the subcommittee. Thank you very much 
for the opportunity to be here before you today. In my brief 
opening comments, I would like to highlight the DHS National 
Cybersecurity and Communications Integrations Center, or 
NCCIC's role in preventing, responding to, and mitigating cyber 
incidents, and then discuss our activities during the recent 
point of sale compromises. I hope my remarks will demonstrate 
the increasing importance of building and maintaining close 
relationships among the wide range of partners in order to 
address all aspects of malicious cyber activity, as well as to 
reduce continuing vulnerabilities, protect against future 
attacks, and mitigate the consequences of incidents that have 
already occurred.
    The importance of leveraging these complementary missions 
has been consistently demonstrated over the last several years, 
and is an increasingly critical part of the broader framework 
used by the government and the private sector to cooperate 
responding to malicious cyber activity.
    As you well know, the Nation's economic vitality and the 
national security depends on the secure cyberspace where 
reasonable risk decisions can be made, and the flow of digital 
goods and online interactions can occur safely and reliably. In 
order to meet these objectives, we must share technical 
characteristics of malicious cyber activity in a timely fashion 
so we can discover, address, and mitigate cyber threats and 
vulnerabilities. It is increasingly clear that no single 
country, agency, company or individual can effectively respond 
to the ever-rising threats of malicious cyber activity alone.
    Effective responses require a whole nation effort, 
including close coordination among entities such as the NCCIC, 
the Secret Service, the Department of Justice, to include the 
Federal Bureau of Investigation, the Intelligence Community, 
sector specific agencies such as the Department of Treasury, 
the private sector entities who are simply critical to these 
efforts, and State, local, tribal, territorial, and 
international governments.
    In carrying out its particular responsibilities, the NCCIC 
promotes and implements a unified approach to cybersecurity, 
which enables the efforts of these diverse partners to quickly 
share cybersecurity information in a manner which ensures the 
protection of individuals' privacy, civil rights, and civil 
liberties.
    As you may already know, the NCCIC is a civilian 
organization that provides an around-the-clock center where key 
government, private sector, and international partners can work 
collaboratively together in both physical and virtual 
environments. The NCCIC is comprised of four branches, the 
United States Computer Emergency Readiness Team, or US-CERT, 
the Industrial Control Systems Cyber Emergency Response Team, 
or ICS-CERT, the National Coordinating Center for 
Communications, and Operations and Integration component.
    In response to the recent retailer compromises, the NCCIC 
specifically leveraged the resources and capabilities of US-
CERT, whose mission focuses specifically on computer network 
defense that includes prevention, protection, mitigation, 
response, and recovery activities. In executing this mission, 
the NCCIC and US-CERT regularly publishes technical and 
nontechnical information products assessing the characteristics 
of malicious cyber activity, improving the ability of 
organizations and individuals to reduce that risk.
    When appropriate, all NCCIC components have onsite response 
capabilities that can assist owners and operators at their 
facilities. In addition, US-CERT's global partnership with over 
200 other CERTs worldwide allow the team to work directly with 
analysts from across international borders to develop a 
comprehensive picture of malicious cyber activity and 
mitigation options.
    Increasingly, data from the NCCIC and US-CERT can be shared 
in machine-readable formats using the Structured Threat 
Information Expression, also known as STIX, which is being 
currently being implemented and utilized. In some of the recent 
point of sale incidents, NCCIC, US-CERT analyzed the malware 
provided to us by the Secret Service and other relevant 
technical data, and used findings, in part, to create a number 
of information sharing products.
    The first product, which is publicly available, can be 
found on the US-CERT's Web site provides nontechnical overview 
of risks to point of sale systems along with recommendations 
for how businesses and individuals can better protect 
themselves and mitigate their losses in the event of an 
incident that has already occurred.
    Other products have been more limited in distribution in 
that they are meant for cybersecurity professionals in that 
they provide detailed technical analysis and mitigation 
recommendations to better enable experts to protect, discover, 
respond, and recover from events. As a matter of strategic 
intent, the NCCIC's goal is always to share information as 
broadly as possible, which includes delivering products 
tailored to specific audiences.
    These efforts ensure that actionable details associated 
with a major cyber incident are shared with the right partners 
so they can protect themselves, their families, their 
businesses and organizations quickly and accurately.
    In the case of the point of sale compromises, we especially 
benefited by the close coordination of the Financial Services 
Information Sharing and Analysis Center, or the FS-ISAC. In 
particular, the FS-ISAC's Payments Processing Information 
Sharing Council has been particularly useful in that they 
provide a form for sharing information about fraud, threats, 
vulnerabilities and risk mitigation in the payments industry.
    In conclusion, I want to again highlight that we in DHS and 
the NCCIC strive every day to enhance the security and 
resilience across cyberspace and the information technology 
enterprise. We will accomplish these tasks using voluntary 
means, ever mindful of the need to respect privacy, civil 
liberties, and the law. I truly appreciate the opportunity to 
speak with you today and look forward to your questions.
    Mr. Terry. Thank you, Mr. Zelvin.
    [The prepared statement of Mr. Zelvin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. And that begins our questions with the end of 
your testimony. It is now the start of our questions. Each 
member has 5 minutes for questions, and I get to go first. Jan 
is second.
    So, Mr. Noonan, you had mentioned that part of Secret 
Service's job is to investigate when breaches occur like this. 
Is the Secret Service, or are you involved in the investigation 
into what happened at both Target and Neiman Marcus and other 
entities?
    Mr. Noonan. Yes, sir. So we are involved in the criminal 
investigation of the Target breach, as well as the Neiman 
Marcus case.
    Mr. Terry. And so far, what have you been able to find out 
that you can communicate to us?
    Mr. Noonan. What we can determine at this point is that the 
criminal organizations that we are looking at in pursuing are 
highly technical, sophisticated criminal organizations that 
study their targets and use sophisticated tools to be able to 
compromise those various systems.
    Mr. Terry. And the breach at Target and Neiman Marcus, we 
have read through the news reports, was from a sophisticated 
criminal entity, as you mentioned in your investigation. Does 
your investigation also then go into how they exploited each of 
those major retailers' data?
    Mr. Noonan. Yes, sir.
    Mr. Terry. And what did you find out?
    Mr. Noonan. It is still an ongoing coordination 
investigation in which we are working on right now; however, we 
do know that the malware at this point in our investigation is 
not the same criminal tools being used at either one of those 
locations.
    Mr. Terry. So they are distinct, separate attacks?
    Mr. Noonan. Yes, sir.
    Mr. Terry. By separate distinct different criminal 
organizations?
    Mr. Noonan. We are working on that part right now, sir.
    Mr. Terry. OK. In your investigations, do you assess 
whether each of the, say, Target and Neiman Marcus' cyber 
standards or their cyber plans were adequate or inadequate or 
vulnerable?
    Mr. Noonan. The Secret Service does a criminal 
investigation, and again, we are continuing to go after the 
criminal organization that is perpetrating these. Both Neiman 
Marcus and Target do use robust security plans in their 
protection of their environment, and it comes back to the 
criminal actors in going after the pot of gold or whatever they 
can monetize. So, as good as security factors are, these 
criminal organizations are looking at ways to go around 
whatever security apparatuses had been set up, so these were 
very sophisticated, coordinated events. It was not necessarily 
from a singular actor. It's a coordination of pieces that were 
used to do these intrusions.
    Mr. Terry. Mr. Zelvin, you also, is your organization, 
NCCIC, have you looked at or assessed the cybersecurity at the 
entities that have been hacked?
    Mr. Zelvin. Mr. Chairman, we have not. We have been working 
closely with the Secret Service on identifying the malware that 
had been used in these incidents, doing the analysis and then 
sharing that with our partners across both the public and 
private sector, but I can tell you that the malware, as we see 
it, as Bill has said, is an incredibly sophisticated and could 
be challenging the most robust security system.
    Mr. Terry. What specifically makes it more sophisticated 
than what we have seen before? Mr. Noonan.
    Mr. Noonan. Sure, sir. What we have seen actually in the 
development of the malware is that it is not an off-the-shelf 
type of malware that is utilized. What makes these targeted 
attacks unique is that the criminals are modifying and molding 
specific types of malware to fit whatever network or intrusion 
set they are going after.
    Mr. Terry. So, it was specifically designed for that, for 
Target?
    Mr. Noonan. For whichever----
    Mr. Terry. And a different one specifically designed for 
Neiman Marcus?
    Mr. Noonan. Depending on security platforms that are 
available, yes, sir.
    Mr. Terry. That is interesting.
    Last, in future prevention, how important is an ISAC and 
would it help if there was a retailer specific ISAC?
    Mr. Zelvin. Mr. Chairman, the ISACs have been absolutely 
critical in our ability to share information with the broadest 
communities possible. As you well know, they are in all 16 
critical infrastructure. In some of these infrastructures, 
certain groups, specifically in aviation and transportation, 
have made ISACs that are a subset of the larger ISAC. I would 
be a proponent of having a retailer ISAC, but it is really for 
the retailers to decide if it is useful for them.
    We have been using the financial services ISAC in this 
case, but we look forward that if the business community wants 
to go that way, we would look forward to working with them.
    Mr. Terry. And that is something that you would be the 
umbrella organization to help?
    Mr. Zelvin. Sir, these are public/private partnerships, and 
DHS has worked with them for quite some time, so it is a model 
that we are very accustomed to using.
    Mr. Terry. There may be a few people in this audience that 
doesn't know what an ISAC is. Can you tell what is the 
advantage and just very quickly what it is?
    Mr. Zelvin. Yes, sir, Information Sharing Analysis Centers 
are predominantly around the 16 critical infrastructure, 
transportation, energy, finance, health, there is obviously a 
number of them, and it allows us, both in a public and private 
way, to get out to thousands of companies and share information 
in both directions.
    So, it is a growing community, but it really allows us to 
get to those cybersecurity professionals and talk to those 
people that really do the network defense and have a 
conversation with those experts in a very robust scale.
    Mr. Terry. Thank you. Now it is my pleasure to recognize 
the ranking member of our subcommittee, Ms. Schakowsky, for 5 
minutes.
    Ms. Schakowsky. Let me just say to Mr. Zelvin, I am sure 
that the chairman would agree, we appreciate our visit to NCCIC 
that we did this weekend in preparation for this hearing and 
the very impressive work that you are doing.
    I wanted to ask Attorney General Madigan a couple of 
questions. You alluded to the Illinois law, the Personal 
Information Protection Act that followed the Choice Point 
breach in 2005. I believe you were here talking about that as 
well.
    Ms. Madigan. It is a different privacy matter, but I think 
that is really when all the States started looking into it 
seriously.
    Ms. Schakowsky. So, our law in Illinois requires 
corporations, financial institutions, retail operators, 
government agencies, universities, other government entities to 
discuss data breaches, and the law says ``In the most expedient 
time possible and without unreasonable delay.''
    How does your office determine what that is?
    Ms. Madigan. Well, first of all, in every circumstance we 
are going to look at what has taken place, but we are also 
going to be very cognizant of what that company or that entity 
needs to do in terms of ensuring that they have maintained the 
integrity of their system, they put security in place, and if 
they are ongoing, law enforcement investigations. We certainly 
don't want to compromise those, and so we will wait in terms of 
requiring notification. But as we have learned over the years, 
and there are studies and reports out there that demonstrate 
it, the sooner an individual is notified that their information 
has been compromised, the less likely they are to actually face 
any sort of unauthorized charges or even a full account 
takeover, which will cost them a lot more money.
    So, it is a case-by-case basis, and obviously, the sooner 
that we can make sure that consumers are notified, the better 
off everybody is in terms of the damage that is going to be 
done to them individually and the losses to the economy.
    Ms. Schakowsky. So the language is kind of general, but you 
make the decision on a case-by-case basis in terms of 
notification?
    Ms. Madigan. Correct. We work with the companies to see 
where they are in the process once we are alerted to the fact 
that a breach has taken place, and obviously we are always 
supportive of the work that the Secret Service and other law 
enforcement agencies are doing in terms of the criminal 
investigation. Really, the investigations that we do are civil 
side, to make sure that our law is actually----
    Ms. Schakowsky. Have you found companies that have not used 
the most expedient time possibly or unreasonable delay?
    Ms. Madigan. We always look at it, and there is always 
questions, really on any side because I think there is a great 
concern that many companies legitimately have about the hit it 
is going to take to their public image if they do have to 
reveal this, so there have been times that we think people 
could move faster, and we work with them to make sure that they 
actually get out that notice. We have not fined anybody for 
that.
    Ms. Schakowsky. You know, you mentioned a couple of times 
about preemption, and I wanted to just ask you how important it 
is that Illinois, and I guess other States as well, maintain 
the right to require the disclosure of data breaches as quickly 
as possible and other enforcement mechanisms?
    Ms. Madigan. I think probably every State official who 
would sit in front of you would say it is very important. 
Obviously, over the last 10 years, the States have really been 
able to be, as we like to say, and I think you also can 
appreciate, the lavatories of innovation. When we started 
seeing people coming to us because they have been victims of 
identity theft, we needed to respond, and we needed to respond 
by making sure that they were notified when their personal 
information had been accessed and compromised, and we needed to 
be able to respond to make sure that companies were actually 
going to be putting in place stronger security measures. So 
we----
    Ms. Schakowsky. Well, I want to ask you about that, because 
the Illinois law does not explicitly require minimum standards 
of protection for personal data, and yet you cited that as a 
problem. Who should do that then?
    Ms. Madigan. Well, we have a growing number of States that 
are actually putting those requirements in place in terms of 
security, and I would have to say that looking back over the 
investigations that we have done into data breaches, it is 
clear that that has to be done, because there really is, we 
like to talk about best practice of being in place, but the 
reality is, oftentimes when we are doing these investigations, 
we repeatedly see situations where information that is personal 
and sensitive financial information is being maintained 
unencrypted.
    We have seen situations where literally the information is 
obtained because documentation with sensitive information is 
being thrown into a dumpster and people have gotten it out and 
used that for illicit purposes. So, there is a minimum 
standard, and then I think that, as Chairman Ramirez did a very 
nice job of explaining, on a case-by-case basis with companies 
considering the types of information, the volume of 
information, the sensitivity of information, we have to have 
increasing standards required.
    Ms. Schakowsky. My time is up, but I look forward to 
working with all of you to figure out what is the appropriate 
Federal congressional response. Thank you. I yield back.
    Mr. Terry. Thank you. I now recognize Chairman Emeritus Mr. 
Barton for your 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for holding this hearing. This is, I 
think, potentially a very important hearing because this is one 
of the few things that Republicans and Democrats both agree on 
is a problem, and I think we maybe be able, with your 
leadership, to reach agreement on what a solution might be, so 
this is one of those rare days that something might actually 
happen as a result of a congressional hearing.
    I am a co-chairman of the Privacy Caucus in the House, 
along with Congresswoman Diana DeGette, and Ms. Schakowsky is a 
member of that caucus, and most of the Republicans on this 
subcommittee are members. The gentlelady to my right is a 
chairwoman of a task force that Mr. Terry and Mr. Upton have 
put together on privacy, so we have got lots of people here 
that are listening very closely to what you folks say.
    My question is a general question. I am going to start with 
the chairwoman of the Federal Trade Commission.
    Madam Chairwoman, do you think it is possible to 
legislatively eliminate, or at least severely restrict data 
theft?
    Ms. Ramirez. There is certainly no perfect solution to this 
issue, but it is clear to me that congressional action is 
necessary. I think it would be very helpful if there were a 
robust Federal standard when it comes to data security as well 
as to a robust standard when it comes to breach notification, 
and I think it is time for Congress to act.
    Mr. Barton. OK. Do the other members of the panel agree 
with that statement?
    Ms. Madigan. Yes.
    Mr. Barton. You do. Good. I thought you might disagree 
actually.
    Ms. Madigan. As long as you don't completely preempt us.
    Mr. Barton. Right. OK. Mr. Noonan and Mr. Zelvin?
    Mr. Noonan. Yes, sir, from a law enforcement approach, the 
Secret Service believes any notification perhaps to law 
enforcement with jurisdiction would definitely assist in this 
effort as well.
    Mr. Zelvin. Chairman, I come from the operational side of 
the Department, and there are things that Congress could do 
that could be very helpful as we work across the Nation or 
across the globe. You know, strengthening the ability on 
information sharing, I will tell you it is often difficult to 
get sometimes companies to share information with us because 
there is no statutory basis, and they tend to be on the 
conservative side.
    Promoting establishing the adoption of cybersecurity 
standards would be very helpful, codifying the interest of 
authorities to help secure Federal civilian agency networks and 
assist critical infrastructure and then the national data 
breach reporting, we can't understand it if we don't know about 
them, so those are just some of the things that would be 
helpful.
    Mr. Barton. OK. The instance with Neiman Marcus, and I 
believe with Target also occurred when a criminal came into 
their stores and used a credit card that infected their system 
at the point of purchase. If we went to some sort of a, well, 
is it possible with the current technology to prevent that type 
of data theft? I see a lot of blank looks here.
    Mr. Noonan. Well, sir, just to clarify, the two breaches 
that we are talking about in Neiman Marcus and in Target were 
done by people infiltrating the system through a computer 
network.
    Mr. Barton. Oh, I thought they came in with a card and it--
--
    Mr. Noonan. No, sir.
    Mr. Barton. OK.
    Mr. Noonan. So it is very difficult to decide, and again, 
these are very complex, sophisticated criminals that did this. 
So they inserted actually a malware code, a malicious code into 
the system which was able to collect----
    Mr. Barton. They did it by penetrating the system from 
outside through a computer link.
    Mr. Noonan. Yes, sir.
    Mr. Barton. Not by giving a card that they inserted? OK----
    Mr. Noonan. And our investigation at this point is 
indicating that it is from transnational criminals so from 
criminals from outside the borders of the United States.
    Mr. Barton. OK. Well, I would hope, since everybody agreed 
that this is a problem, and that the Federal Government should 
legislate, we can come up with a best practices set of 
recommendations to present to the committee, and then let us 
massage it only the way we can, and we will try to move on 
something, hopefully in this Congress.
    And with that, I am going to yield back 34 seconds to the 
chair.
    Mr. Lance [presiding]. Thank you very much, Mr. Barton.
    The chair recognizes the Dean of the Congress, Mr. Dingell 
of Michigan.
    Mr. Dingell. Mr. Chairman, you are most courteous, and I 
commend you for holding this important hearing.
    I think we can all agree that the breaches at Target and 
Neiman Marcus were tragic. We had a duty to protect the 
American consumers from events like this in the future.
    This committee and the House must act to pass data security 
and breach notification legislation. The administration has 
proposed similar legislation. Congress must act again, and we 
must ensure that such legislation makes it's way to the 
President's desk for signature.
    To that end, I am most interested to hear any opinions of 
the FTC, and what they may wish to share with us. All of my 
questions this morning will be addressed to Chairwoman Ramirez. 
Madam Chairman, welcome.
    Now, Chairman, your written testimony indicates the 
Commission enforces a patchwork of Federal data security 
statutes, such as Gramm-Leach-Bliley, the Fair Credit Reporting 
Act, Children's Online Privacy Protection Act. Do any of these 
acts require an FTC-covered entity whose collection of personal 
identification has been breached to notify customers so 
affected? Yes or no?
    Ms. Ramirez. No.
    Mr. Dingell. That is needed I assume?
    Ms. Ramirez. I am sorry?
    Mr. Dingell. That is needed, I assume.
    Ms. Ramirez. Yes, absolutely.
    Mr. Dingell. Now, Madam Chairman, similarly, do any of 
these acts require entities subject to the breach to notify the 
Federal Trade Commission or law enforcement in general of such 
a breach? Yes or no?
    Ms. Ramirez. No.
    Mr. Dingell. Madam Chairman, in view of this should the 
Congress enact a Federal data security and breach notification 
law? Yes or no?
    Ms. Ramirez. Yes.
    Mr. Dingell. Madam Chairman, under such law should FTC-
covered entities be exempted from breach notification 
requirements if they are already in compliance with GLBA, FCRA, 
and COPPA? Yes or no?
    Ms. Ramirez. No.
    Mr. Dingell. Now, Madam Chairman, should such a law be 
administered by one Federal agency or by some kind of a collage 
of agencies?
    Ms. Ramirez. One agency.
    Mr. Dingell. One agency. Now, I happen to think that that 
should be the Federal Trade Commission because of its long 
expertise in these matter. Do you agree?
    Ms. Ramirez. I would agree.
    Mr. Dingell. Madam Chairman, should a Federal data security 
breach and notification law prescribe requirements for data 
security practices according to the reasonableness standard 
already employed at the Commission? Yes or no?
    Ms. Ramirez. Yes.
    Mr. Dingell. Madam Chairman, should that be expanded? 
Should that be expanded?
    Ms. Ramirez. Yes, I think there should be a robust Federal 
standard.
    Mr. Dingell. All right, I will ask you to contribute for 
the record information on that view, if you please.
    Ms. Ramirez. Yes.
    Mr. Dingell. I ask unanimous consent that that be inserted 
at the appropriate time.
    And thank you, Mr. Chairman.
    Now, Madam Chairman, should such a law address notification 
methods, content requirement, and timeliness requirements? Yes 
or no?
    Ms. Ramirez. Yes.
    Mr. Dingell. Wouldn't work very well without that would it?
    Ms. Ramirez. That is right.
    Mr. Dingell. Now, Madam Chairman, in the event of a data 
breach, should such a comprehensive data security and breach 
notification law require companies subject to a breach to 
provide free credit monitoring services to the affected 
consumers for a time certain? Yes or no?
    Ms. Ramirez. Yes, with limited exceptions.
    Mr. Dingell. Do you have authority to do that now?
    Ms. Ramirez. No.
    Mr. Dingell. Do you need it?
    Ms. Ramirez. I think it would be appropriate to, again, to 
impose it as a requirement with limited exceptions.
    Mr. Dingell. Madam Chairman, I note that--well, let's ask 
this question: Should violation of such law be treated as a 
violation of a Federal Trade Commission rule promulgated under 
the Federal Trade Commission Act? Yes or no?
    Ms. Ramirez. Yes.
    Mr. Dingell. Madam Chairman, would you please submit some 
additional comments on that point to the record?
    Ms. Ramirez. Absolutely.
    Mr. Dingell. Now, Madam Chairman, should such a law be 
enforceable by state attorneys general? Yes or no?
    Ms. Ramirez. Yes.
    Mr. Dingell. Madam Chairman, should such a law preempt 
existing State data security, and breach notification laws? Yes 
or no?
    Ms. Ramirez. If the standards are robust enough, yes.
    Mr. Dingell. Would you submit some additional information 
to us on that point, please?
    Ms. Ramirez. Yes.
    Mr. Dingell. Madam Chairman, given advances in criminal 
ingenuity which seems to be moving forward almost with the 
speed of light, as potential in the future, should any 
statutory definition of the term ``personal information'' 
included in a comprehensive Federal data security and breach 
notification law be sufficiently broad so as to protect 
consumers best? Yes or no?
    Ms. Ramirez. Yes.
    Mr. Dingell. Thank you, Madam Chairman.
    Mr. Chairman, I want to thank you for your kindness to me 
this morning. I urge the committee to work with the Federal 
Trade Commission to draft and pass a comprehensive Federal data 
security and breach notification legislation. I believe that 
this should be done in a bipartisan fashion, and I think that 
the Democrats and the Republicans can work together for this 
purpose.
    Meanwhile, I would note such legislation is not a panacea 
for data theft, and hopefully, it will serve to reduce it and 
better protect consumers.
    I again, I thank you, Mr. Chairman, for your courtesy to 
me, and I appreciate the holding of this hearing.
    Madam Chairman, thank you for your courtesy.
    Mr. Terry. Well done, and actually entertaining. So thank 
you, Mr. Dingell.
    Ms. Blackburn, you are now recognized for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate that, 
and thank you all again.
    Ms. Ramirez, I think I want to start with you for a minute. 
You said in your testimony: ``Never has the need for 
legislation been greater.''
    And so taking that statement, it could mean that the 
companies who suffered the breaches did not use reasonable 
measures to protect consumer data. So, if that is your 
statement then, is the FTC involved in the forensic 
investigation regarding the Target, Neiman Marcus, Adobe, the 
hotel chains, all of these breaches?
    Ms. Ramirez. I am afraid that I can't discuss any 
particular companies or discuss whether the FTC is involved in 
any particular investigations, but let me explain what I meant 
by that statement. I meant it as a general statement reflecting 
what we are seeing in the marketplace, and that is that 
companies continue to make very basic mistakes when it comes to 
data security. And our role at the FTC is to protect consumers 
and ensure that companies take reasonable and appropriate 
measures to protect consumer information.
    Mrs. Blackburn. OK, then let me stop you right there. So 
you are saying that not due to this group, but because of 
general, so you are basically reworking your testimony with me 
on this? It is not that these specific breaches show that there 
has never been a greater need. So you may want to submit a 
little bit of clarification there.
    Ms. Ramirez. I can answer right now if you wish.
    Mrs. Blackburn. Well no, I want to move on. I have got 3 
minutes and 14 seconds and about 5 pages of questions. So 
submit it.
    I also would like you to talk about or to submit to us what 
is the reasonable standard? You have referenced it several 
different times, but I have not seen a reasonableness standard 
in writing, so what are you referencing?
    Ms. Ramirez. We take a process-based approach to this 
question. Technology is changing very rapidly. The threats that 
companies face are also evolving very rapidly, so we think that 
the appropriate way to proceed in this situation is to focus on 
whether companies are looking very closely at the threats to 
which their businesses are exposed, and whether they are 
setting reasonable program security programs putting those in 
place.
    Mrs. Blackburn. OK, why don't we----
    Ms. Ramirez. If I may, it is a very fact-specific inquiry--
--
    Mrs. Blackburn. OK.
    Ms. Ramirez [continuing]. And I think a reasonableness 
standard is appropriate.
    Mrs. Blackburn. I can appreciate that, but I think to use 
that term repeatedly, what we need to know is what your 
definition of reasonableness would be.
    Mr. Zelvin, let me come to you. You know, we hear the 
chairman say, well, you are not doing this, you are not doing 
that. How quickly do the cybercriminals message evolve? You 
have looked at this for a very long time. So and you sent out 
updates, you know, daily, weekly, monthly, so how quickly is 
the evolution of this process?
    Mr. Zelvin. Congresswoman, the evolution is incredibly fast 
and we are learning with each incident the complexity.
    Mrs. Blackburn. OK.
    Mr. Zelvin. So they are moving very quickly. They are very 
sophisticated and we are in a chase to keep up with them.
    Mrs. Blackburn. OK, Ms. Ramirez, back to you. Another 
thing, you testified that in a number of the 50 data security 
cases settled by the FTC, the companies simply and I am quoting 
you, ``Failed to employee available cost-effective security 
measures to minimize or to reduce the data risk.''
    So I want you to give us some examples of the kind of 
measures that the companies failed to use, because you hear 
from Mr. Zelvin how quickly this evolution is taking place, and 
the need for flexibility and nimbleness, and then we hear you 
saying, but you have got to have a standard. And you have got 
to do this. And we have taken these efforts in the 50 cases we 
have settled. So for those of us that are looking at what 
legislation would look like, we have to realize that it has got 
to be nimble. You are saying you want something, but then you 
are not giving us specifics or examples of what you think 
people have failed to do. So I hope you are understanding, we 
have got a little bit of a gap here. Go ahead.
    Ms. Ramirez. So let me just say that I think the approach 
that the FTC recommends for legislation is one of 
reasonableness. We think that that is an appropriately flexible 
standard that will allow for nimble action. And to give you an 
example, as I mentioned in our experience, companies continue 
to make very simple mistakes when it comes to data security. We 
also have data that corroborates that and that includes the 
Verizon data breach report that Mr. Noonan referenced in his 
opening remarks.
    So just to give you a few examples, this can span low-tech, 
and high-tech mistakes but they could include the failure to 
use strong passwords, the failure to encrypt personal 
information, the failure to update security patches, so it is 
these very basic mistakes that we encounter frequently.
    Mrs. Blackburn. So it is consumer and not company failures?
    Ms. Ramirez. No, this would be, I'm referring to company 
failures.
    Mrs. Blackburn. You are referring to company failures. OK, 
thank you.
    I yield back.
    Mr. Terry. All right, thank you. And I now recognize the 
gentleman from Vermont for his 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    The technology that we use is not the best, is that 
correct, Chairwoman Ramirez? I mean, as I understand it, the 
chip-and-PIN technology is what is now being used in Europe, 
and it has better success in preventing fraud; is that right?
    Ms. Ramirez. We don't recommend any particular technology. 
We think that any legislation ought to be technology neutral. 
That being said, we certainly would support any steps that are 
taken at the payment card system end to protect or better 
protect consumer information.
    Mr. Welch. Well, are we still by and large using 1970s-era 
magnetic stripe technology, General Madigan, is that your 
understanding?
    Ms. Madigan. Yes, that is accurate and so that puts us 
behind virtually every other country in the world in terms of 
the security of our payment systems.
    Mr. Welch. All right. So then there is an ability on the 
part of the card issuers to upgrade the technology to meet 
basically standards that are being employed in Europe; is that 
correct?
    Ms. Madigan. That is correct. And when you look at the 
amount of fraud losses that these other countries where the 
chip-and-PIN technology is used, you can see that their levels 
of fraud have decreased significantly, around 50 percent. So 
chip-and-PIN technology won't completely eliminate fraud and 
breaches, but it should significantly curb the amount that we 
currently see.
    Mr. Welch. That is good. And what I understand now is VISA 
and MasterCard have announced a roadmap to chip-and-PIN 
technology for U.S. payment cards. Do you think it would be 
problematic if VISA and MasterCard decided to abandon the PIN 
feature on chip cards given that PINs enhance security?
    Ms. Madigan. I think it makes sense to use PINs, and when 
there are problems people can obviously change their PINs as 
they change passwords.
    Mr. Welch. Mr. Noonan, how about you? I mean you have 
frontline responsibility for trying to maintain the integrity 
of the system and, obviously, it is extraordinarily important 
to our merchants, to our banks, and to our consumers.
    Mr. Noonan. Yes, sir, right now currently----
    Mr. Terry. Would you pull the mike a little closer?
    Mr. Noonan. Sure. Currently the Secret Service doesn't have 
a metric in which to measure chip and PIN, obviously, here in 
the United States it is not readily used. But however, the 
Secret Service does support any sort of technology which would 
assist in the security of that particular data.
    Mr. Welch. But it is your understanding the same as General 
Madigan's that technology, the chip-and-PIN technology that is 
widely deployed in Europe has been much more successful in 
reducing fraud?
    Mr. Noonan. It could give another level of security which 
again makes it more difficult for the criminals to get at that 
data. I am not saying, again, that chin and PIN is the 
solution. Of course, there is not 100 percent solution, 
technological solution for the problem.
    Mr. Welch. Right, but what it is is a better technology 
than the 1970s-era magnetic swipe card, correct?
    Mr. Noonan. Sure, it is. The magnetic stripe card is a 30-
year technology, sir.
    Mr. Welch. Right. Mr. Zelvin, how about you?
    Mr. Zelvin. Congressman, I agree with Mr. Noonan and the 
other panelists, but there are other challenges as well.
    Mr. Welch. Right.
    Mr. Zelvin. Now you are using your phones now for payments. 
You are using your computer, your laptop for payments. But 
having that extra security on the card itself would be very 
helpful, but we have to look at other things as well.
    Mr. Welch. All right. I will go back to you, Chairwoman 
Ramirez. There seems to be some consensus it would be good to 
have a standard, but we can't pick winners and losers on 
technology. So what would be sort of a concrete step that 
Congress would take that would be practical and effective in 
improving the status quo?
    Ms. Ramirez. So number one, I think that just the Congress 
taking action alone would be a very important statement. But 
what we advocate is that a reasonableness standard be employed 
along the lines of what the FTC has in place with the 
Safeguards Rule. And I would be happy to work with the 
committee on these issues, and my staff is available to do 
that.
    Mr. Welch. So it sounds like we can't, as a legislative 
body, prescribe what the best technology is. We have got to let 
industry figure that out and at least set a higher standard, 
but on the other hand, you need some flexibility if steps are 
being taken, or not taken that would enhance security----
    Ms. Ramirez. Absolutely.
    Mr. Welch [continuing]. For consumers and merchants?
    Ms. Ramirez. Yes. I think flexibility is important and that 
is one of the reasons that we are requesting that the FTC have 
rulemaking authority in order to implement the legislation that 
would allow the agency to take into account an evolution and 
changes when it comes to technology.
    Mr. Welch. And would this be helpful in the privacy 
breaches as well? I mean, thieves are going in to get monetary 
value, but they are ending up also with Social Security 
numbers, personal information, things that can be used in 
identity theft. So the better security, would it not only help 
with the economic loss, but the identity theft assault? General 
Madigan, I will ask you.
    Ms. Madigan. Absolutely, so obviously, what we see is when 
people's personal information is taken, it is frequently used 
to commit identity theft. But it can certainly be used, not 
just financial identity theft, but there are many other types 
of----
    Mr. Welch. Right.
    Ms. Madigan [continuing]. Identity theft that take place.
    Mr. Welch. I see my time is up.
    I just want to thank this panel. Mr. Chairman, this is a 
great panel. Thank you for assembling it.
    Mr. Terry. Yes. Thank you.
    And I now recognize the gentleman from New Jersey, Mr. 
Lance, the vice chair.
    Mr. Lance. Thank you, Mr. Chairman.
    Mr. Zelvin, a recent Wall Street Journal article reported 
that the software virus injected into Target's payment card 
devices couldn't be detected by any known antivirus software; 
is that accurate?
    Mr. Zelvin. It is, sir.
    Mr. Lance. And could you elaborate on that?
    Mr. Zelvin. Certainly. Most of our detection systems use 
signatures based, so there are known problems and there is a 
technical formula we put into a machine that says, hey, you 
told me to look for this. I found it. In some cases there are 
intrusion prevention systems that prevent that malicious event 
from getting to the endpoint. In this case, it looks like the 
criminals modified it, what was a standard attack for point of 
sale and modified it in such a way that it is undetectable.
    Mr. Lance. Thank you very much.
    Mr. Noonan, you stated that ``The Secret Service has 
observed a marked increase in the quality, the quantity, and 
the complexity of cyber crimes targeting private industry and 
critical infrastructure over the decade-long trend of major 
criminal data breaches.''
    Can you give us some examples of how these criminals and 
their tactics have evolved, and I presume these criminals are 
not necessarily residents or citizens of the United States?
    Mr. Noonan. Yes, sir. So we are talking about a network of 
transnational cybercriminals.
    You know, over time we can look back at the data breaches 
at T.J. Maxx, we can look at Dave And Busters and the ones that 
happened back around the era of 2006. And back during that 
time, the cybercriminal was attacking databases, and 
unencrypted data.
    Mr. Lance. Yes.
    Mr. Noonan. Which is credit card payments.
    Mr. Lance. Yes.
    Mr. Noonan. That got changed, it morphed in 2007, where the 
focus ended up going towards credit card processing companies 
where they were looking at ways to get into the same type of 
data. But they were looking at credit card data as a pass 
through credit card processors when it was unencrypted at that 
time.
    So encryption modification has been made now through that 
system and you know information is now encrypted as it goes in 
these systems. Today we have seen the change now, they are 
looking at where the fence is and how to get around that fence. 
So where they are attacking now is at the point of sale piece, 
where from the point-of-sale terminal to back of the house 
server, if you will, that piece of string has not been 
encrypted.
    Mr. Lance. Thank you.
    Mr. Noonan. So it is happening at that point.
    Mr. Lance. Thank you very much.
    Mr. Noonan. Sure.
    Madam Chairwoman, you answered Chairman Emeritus Dingell's 
questions regarding preemption. I didn't understand your 
answers; my fault, not your fault. Would you explain in a 
little more detail your views on preemption, and I come at this 
having been the minority leader in the New Jersey State Senate 
and I certainly believe in a robust democracy with protections 
both here in Washington and at State capitals, and if you could 
just elaborate briefly on the preemption issue.
    Ms. Ramirez. Yes, I believe that preemption is appropriate, 
but provided that the standard that is set is sufficiently 
strong, and also provided that the States have concurrent 
ability to enforce.
    Mr. Lance. Concurrent ability. So this----
    Ms. Ramirez. Yes.
    Mr. Lance [continuing]. Would not mean that the States 
would not have a significant responsibility in this very 
complicated and difficult issue?
    Ms. Ramirez. The States do tremendous work in this area and 
I think it is vital to have them with jurisdiction to enforce 
the law.
    Mr. Lance. Thank you.
    Attorney General Madigan, it is a pleasure to meet you, and 
although I do not know you, the New Yorker Magazine has come 
into our house forever, and your husband is a brilliant 
cartoonist, and certainly my wife and I enjoy his fine work.
    Could you comment on the preemption issue?
    Ms. Madigan. Obviously----
    Mr. Terry. And could you move your microphone a little 
closer?
    Ms. Madigan. Sure.
    In terms of preemption, I would concur with what the 
chairwoman has said. As long as the Federal legislation has 
strong enough standards and States still retain the ability to 
enforce, as we do in a number of areas already, we understand 
that it is potentially reasonable to say, OK, we are going to 
preempt you in a certain manner.
    And in fact, back in 2005 Congress received a letter from 
the National Association of Attorneys General requesting 
notification laws be put in place at the National level. And so 
as long as we still retain the ability to respond to our 
consumers, and this is looked at in some ways potentially 
either as a floor, and not a ceiling, we understand your role.
    Mr. Lance. Thank you very much.
    Let me say, Mr. Chairman, that I believe that this 
committee will, in a bipartisan capacity, work on this issue, 
work to conclusion, and this is the committee in the Congress 
that deals on these important, nonpartisan, or bipartisan 
issues, and I have every confidence that we will meet the 
challenge working with the distinguished panel, working with 
the next panel, and I look forward to being involved to the 
greatest extent possible.
    Thank you, Mr. Chairman.
    Mr. Terry. Thank you.
    And I now recognize the gentleman from Kentucky, Mr. 
Guthrie for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman, and I want to thank 
everybody for coming today. I have a business background, and I 
know that anytime you have an issue with your customers it 
takes a long time to build trust back up again.
    So I know the incentives are for businesses to protect 
their data as much as they can, but at the same time, I worked 
in a retail store when I was in high school. My grandfather had 
a grocery store and we had nowhere the data that you have to 
deal with now. Everybody has to deal with data. So we need the 
right incentives and the right things in place to make sure 
that is protected. I want to talk to Agent Noonan.
    You testified that it is really the victim company that 
that first discovers the criminal's unauthorized access, and 
why is that? Are they not paying attention?
    Mr. Noonan. No, sir. For law enforcement and for the Secret 
Service it is a result of a proactive approach to our law 
enforcement. While we are out working with sources, we are 
gathering information. We are working with our private-sector 
partners specifically in the financial services sector, where 
we are receiving data, and when we are receiving that data, a 
lot of times what can occur is we can see a point of 
compromise, a common point of compromise, whereas the retailer 
might not necessarily see compromised data that is out in the 
world.
    And by looking at that data, we can go to that victim 
company, make notification to that company, and advise them 
that they have a leak. Now, it doesn't necessarily mean it is 
that company. It can potentially be that company's credit card 
processing company. It could be their bank, it could be a host 
of other systems that are hooked into the main company. But it 
is a point for us to us go to that potential victim and say 
please look at your data, and see if you have a problem.
    Mr. Guthrie. That was my question, I guess. So who 
typically notices the breach first? Is it typically law 
enforcement who is monitoring this and they see these 
transactions, or is it all of a sudden one day a retailer 
starts getting calls from a lot of their credit card companies 
from a lot of their customers saying hey, I have got these 
charges. The charges aren't mine, the charges aren't mine, the 
charges aren't mine. And then it finally figures out what is in 
common with these people and they went to a certain store? I 
mean, is that, do you usually find it as it is going through 
your monitoring or it is people reporting that they have 
something done to them and you find the commonality or both.
    Mr. Noonan. So to answer your question, both.
    Mr. Guthrie. Typical, I guess. Both.
    Mr. Noonan. I don't think that there is a typical, if you 
will.
    Mr. Guthrie. All right.
    Mr. Noonan. But we do work closely with the banking 
community, and as banking investigators look at those anomalies 
and find those anomalies, obviously, they are getting calls 
from their consumers and saying that there is a problem. They 
will notice an anomaly, as well as we are targeting different 
criminals, and in targeting those different criminals we have 
different sources and we are able to some different things that 
are happening in the criminal underground. And that is another 
effective tool that we have at our disposal to be proactive in, 
sometimes it is notification.
    But you have got to realize, in law enforcement under that 
approach, sometimes we are stopping the occurrence from 
actually occurring, too. So we might go to a victim, a 
potential victim company to allow them to know that they have 
been compromised and in doing so, we stop the company from 
losing a single dollar.
    Mr. Guthrie. Yes the----
    Mr. Noonan. As a result of a proactive approach, that is a 
very successful method in which law enforcement is a tool for 
consumers. They are out there out in front looking for that 
type of behavior.
    Mr. Guthrie. We certainly appreciate that effort. And Mr. 
Zelvin, you mentioned the NCCIC's mitigation capabilities were 
leveraged to coordinate efforts to secure assistance against 
these attacks. Does the NCCIC provide technical recommendations 
on how to secure systems?
    Mr. Zelvin. We do, sir. And it is probably the most 
important part of what we do. So it is not necessarily about 
finding the fires and putting them out, but preventing them 
from happening to begin with. So, and I think this is another 
great example on the point of sale systems. Obviously, these 
companies had to compromise. Our responsibility is to assist 
them, but also to let the broader community know what they need 
to go look for so they can go see if it is on their systems, 
take it off, and then prevent it from hopefully happening to 
them as well.
    Mr. Guthrie. And also you described a product that you 
recently disseminated to the industry that contains detailed 
technical analysis, the mitigation recommendations regarding 
the recent point of sale tax. Can you generally describe what 
you mean by mitigation recommendations and tell us who develops 
those recommendations?
    Mr. Zelvin. Certainly, sir.
    We work with a cross-section across the Nation with the 
financial services sector, with technical experts from the 
manage security services. And so we canvas the Nation as a 
whole. And then we put out recommendations. In some cases it is 
as simple as changing your passwords, but there is also 
patching your systems. And I think the other panel is going to 
talk about that.
    If you just do some of the routine hygiene of cyberspace 
you are in a far better place. A couple of things, are you 
using fire walls and antivirus, restricting your Internet 
access, and disabling remote access. Some of these things are 
common sense. Some of the things are new as we discover, but 
regardless, we want to get out as much information as we can to 
help people defend their networks.
    Mr. Guthrie. Yes, you even see a place where I buy gas 
quite often has a little, like of strip of tape that says, if 
this seal is broken, please notify us to keep people from, 
where you do the pay at the pump.
    And in your testimony, I guess the one thing I just want to 
point out, and just to let you, I have got about, well, I am 
about out of time. But you say: ``No country, industry, 
community or individual is immune to the threat.''
    Mr. Terry. Five seconds.
    Mr. Guthrie. So everybody has to be vigilant continuously 
because nobody is impervious to cyberthreats, right?
    Mr. Zelvin. That would be correct, sir. And I would be 
happy as elaborate later as needed.
    Mr. Guthrie. I am sorry, I just ran out of time.
    Mr. Terry. All right. The gentleman's time is expired.
    The chair recognizes the gentleman from Texas, Mr. Olson, 
for 5 minutes.
    Mr. Olson. I thank the chair, and welcome to our witnesses.
    If you review the testimony of this panel and the second 
panel, and combine that information with my career as a naval 
officer, we are engaged in combat here. It is warfare. In 
combat, the first thing you do is get the lay of the 
battlefield. A witness on the second panel names four separate 
phases of an attack: Infiltration, access to data, propagation, 
moving around by and as how you want, aggregation for the big 
package, and then exfiltration, get it out to the black market.
    All four steps have to happen, obviously, for a breach to 
occur. It seems like we force the public sector to focus on 
exfiltration, the last step; the private sector, at 
infiltration the first step.
    And obviously, if we get to exfiltration we are closing the 
barn door after the cows have gotten out. Not an effective way 
to fight this battle.
    So my question is first to you, Mr. Zelvin. How can your 
part of the public sector, the NCCIC, help with all four phases 
of an attack, not just exfiltration. It seems like you have 
done some outstanding work with that.
    Mr. Zelvin. Yes, thank you, Congressman.
    Where I tried to focus our efforts at the NCCIC and my 
staff is just getting at that very first phase of the 
adversaries' actions. We do not want to be the responders. We 
want to be the prevention mechanisms and protection and 
mitigation. So unfortunately, a lot of times where we discover 
challenges is after they have already happened. So what we are 
hoping to do is just learn from the bad experiences of one or a 
few to hopefully protect the many.
    I would like to highlight that our Industrial Control 
System CERT, and we are doing more of this with the US-CERT. We 
are actually doing experimentation to see if we can crack into 
some boxes, see the vulnerabilities. And we work with the 
private sector very closely to see where the vulnerabilities 
are, and then close those doors as quickly as we find them.
    Mr. Olson. Thank you. Mr. Noonan, you as well, sir. You are 
law enforcement so you are probably, that is your nature. Right 
at the end of the line there when those events happen. You 
mention that just by having something out there you can delay 
some future damages. So is that what you are limited to, or is 
there something else you can do to attack the other phases?
    Mr. Noonan. So in our investigations, we are pulling 
evidence out of the crimes that have happened, too, in a 
reactive approach. But the proactive approach, the former 
proactive approach to that is we are information sharing. So as 
we are seeing different tactics, different trends that are 
happening in these intrusions, we are taking that information 
and we are sharing that with our partners at the 33 electronic 
crimes task forces that the Secret Service has set up around 
the country and internationally, as well as we are taking in 
information and we are pushing it to Mr. Zelvin's group at the 
NCCIC. And that information is being pushed out to the sector. 
So by observing the evidence and sharing what we are finding in 
these different intrusions, we are better protecting the bigger 
infrastructure, if you will.
    Mr. Olson. General Madigan, any comments, ma'am, in law 
enforcement for Illinois?
    Ms. Madigan. Well, one of the things I would say in terms 
of the last two responses is from our perspective there is an 
enormous amount of work that also needs to be done to educate 
the public as to how to protect themselves, and so many people 
have adopted technology so quickly, they are not necessarily 
putting in place the safeguards and monitoring their accounts, 
and putting in place transaction alerts so that when these 
types of breaches occur they can minimize the damage that they 
have to their finances.
    Mr. Olson. And finally Ms. Ramirez, any comments, Ma'am 
on----
    Ms. Ramirez. I will just say that I agree with Attorney 
General Madigan. This issue is a complex one that requires a 
multifaceted solution and that includes, again, companies 
taking appropriate and reasonable measures to protect 
information, and also of course, consumers also being educated 
about how what they can do to protect information.
    The main point and why I believe that action is really 
needed today, is that these breaches remind us of how important 
it is, how important this issue is, and given the amount of 
personal information that is being collected from consumers and 
used and retained, this is truly critically important.
    Mr. Olson. Thank you.
    One final question for you, General Madigan. A legal 
question, I am curious. I went to law school at the University 
of Texas, passed the bar, never practiced, but I am concerned 
and wonder, why did you announce publicly the investigation of 
Target, but not Neiman Marcus. Any reason why that----
    Ms. Madigan. We announced both of them.
    Mr. Olson. Both, OK. I thought you just announced Target, 
so thanks for the clarification.
    I yield back.
    Mr. Terry. Thank you.
    The chair now recognizes the gentleman from Kansas, Mr. 
Pompeo, for 5 minutes.
    Mr. Pompeo. Thank you, Mr. Chairman. I am not quite as 
sanguine that we are in a place where we are quite ready to 
move down this path. I am glad we are having this hearing, but 
we often, when the New York Times gets wound up we in Congress 
sometimes react in ways that I think are inappropriate to the 
true challenge. And I want to talk about that for just a 
second.
    Ms. Ramirez, typically we regulate when there is a market 
failure. That is the reason the Federal Government would come 
in and regulate in this space is because we don't think that 
private actions can respond to a particular concern or threat 
in an appropriate way. I can understand the potential 
justification for notification because sometimes someone might 
not know that their material had been stolen, so I can 
understand a potential justification for regulating with 
respect to notification.
    Why is it the case that consumers can't figure out that if 
they are not happy with Target or Neiman Marcus, or whomever it 
is allowed their data to be stolen, that they wouldn't migrate 
somewhere else? Why is it the consumers won't analyze the risk 
of their data being stolen and respond appropriately without 
the Federal Government stepping into try and regulate?
    Ms. Ramirez. I don't believe that the burden should be 
placed on consumers when it comes to this issue.
    Mr. Pompeo. Why is that, Ms. Ramirez? We do that in so many 
other places. If you think your material is going to be stolen 
from your home, you can buy a home security system. We have 
lots of places where there are risks to our private property, 
and we allow consumers to step in and decide if they want to 
pay $60 a month, $200 a month, or $1,000 a month for their own 
security.
    Ms. Ramirez. I think consumers do have a role to play here, 
as I mentioned earlier. I think there are steps that consumers 
can take to be vigilant in this area, but I believe the role of 
the FTC is to protect consumers. And when you look back at the 
data that is available and that is out there, and it is also 
consistent with our experience, let me cite specifically the 
Verizon data breach report. They have an annual report that 
studies what is happening in the area of data security, and 
that information tells us that companies continue to make very 
fundamental mistakes when it comes to data security. They are 
not taking the reasonable and necessary steps that they need to 
in order to protect the consumer information that they collect, 
use, and retain.
    Mr. Pompeo. I appreciate that, and that report is there, 
and consumers might choose not to pick Verizon as a direct 
result of that. I think we ought to make sure we appreciate 
that.
    Attorney General Madigan, do you have data that tells you 
when folks call in, how much they are prepared to pay for 
protection? That is, if they call and say, my data was stolen. 
Do you know how much they are prepared to pay per incident? 
Will they only bay $0.50 or $5 million to protect their data? 
Do you have an analysis of what----
    Ms. Madigan. We don't and we----
    Mr. Pompeo. Because you said consumers are panic and 
angered.
    Ms. Madigan. Right.
    Mr. Pompeo. I would presume that they are prepared to take 
some of their hard-earned money to protect themselves. Do you 
have data with respect to that?
    Ms. Madigan. I can tell you that we have had $26 million 
worth of fraudulent charges removed from Illinois residents' 
accounts. And I can tell you based on the 34,224 people we have 
had to work through to do that with, on average, these 
individuals have lost or at least not lost, but had $762 in 
fraudulent account amounts removed.
    So I haven't asked them how much they would like to pay for 
security. They feel as if they are having to actually pay the 
price simply for engaging in everyday activity whether it is 
commercial activity, or interacting with the government, or 
being provided with medical services.
    Mr. Pompeo. Do you think if we head down the path that you 
are proposing that they ultimately won't pay for that, that 
these costs won't be borne by consumers ultimately?
    Ms. Madigan. I know that costs are going to be borne by 
consumers, absolutely.
    Mr. Pompeo. So might it not at be least an idea we should 
consider to have them pay for that directly so they can see 
those costs, and they respond appropriately, as opposed to 
having them removed from their bills, or have the Federal 
Government mask that real cost to them so they don't really 
know the risk that they are presenting by particular use of 
their own data?
    Ms. Madigan. I am not exactly sure the scheme you are 
trying to propose here, but you are correct in the sense that 
if we are going to update, for instance, credit card technology 
to adopt chips-and-PINs, obviously, consumers are going to pay 
an increased cost. Retailers, they are going to pay in terms of 
increased costs and fees at their banking institutions. So 
consumers will pay and hopefully we will be able to improve our 
security.
    Mr. Pompeo. Thirty seconds. I am going to try two yes or no 
questions. Do you think that there should be private rights of 
actions associated with these rules as well?
    Ms. Madigan. At this point we have been able to handle 
these at the State level.
    Mr. Pompeo. Great. And then you made a statement. You said, 
in fact I will quote, ``Nearly ever other country in the world 
is ahead of us.''
    Surely, you don't mean Niger.
    Ms. Madigan. There may be several African countries that--
--
    Mr. Pompeo. I just came back from Europe and I will tell 
you, they think our system is pretty good here, too. They are 
very comfortable doing business across Asia, Europe, and North 
America. And so I actually think our system may not be as dire 
a situation as has been suggested this morning.
    I yield back.
    Mr. Terry. Thank you.
    I now recognize the gentleman from Ohio, Mr. Johnson for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and I, again, want to 
thank you folks for being here today.
    I am very concerned about the increase and the 
sophistication of the cyberattacks. And just to kind of get 
your opinion on it, Mr. Noonan, how does the increasing level 
of collaboration among cybercriminals that you referenced 
increase the potential harm to companies and consumers?
    Mr. Noonan. So the increasing collaboration between 
cybercriminals just increases their capabilities, so when we 
say that there is collaboration between these groups, these are 
loosely-affiliated organized criminal groups that are doing 
this. I have used the analogy of Oceans 11, of what this group 
and what this network does.
    So they have groups that will do infiltration into the 
system to gain access. They have other people that will design 
malware. They have people that go and map the different network 
to figure out exactly how to get through the networks. There is 
exfiltration of data that occurs in these situations as well, 
and there is monetization so that data that is stolen has to be 
sold. And then, of course there is money laundering, the 
movement of money. So when you bring together a coordinated 
group of sophisticated criminals, it does, it is a, you know, 
they will find the edge of the fence and perpetrate our system.
    Mr. Johnson. Now, once we identify who these folks are that 
are perpetrating these attacks, well, first of all, are they 
State side, or are they overseas for the most part?
    Mr. Noonan. The majority of the criminals that we are 
looking at are transnational criminals.
    Mr. Johnson. OK, so outside of the United States.
    Mr. Noonan. Yes, sir.
    Mr. Johnson. OK. To what degree do we have the authority to 
go after those folks when we identify them?
    Mr. Noonan. Sure.
    Mr. Johnson. And do you know of any ongoing actions to shut 
them down?
    Mr. Noonan. Sure. The Secret Service actually has a unique 
history of success in this area. We have brought many of these 
different perpetrators to justice. I mean, we go back and talk 
about the TJX investigation as well as many others. But in the 
TJX investigation, we were successful. We arrested domestically 
in this case, Albert Gonzales. He is sentenced to 20 years in 
prison here in the United States.
    We, also in the summer of 2012, we arrested Dimitri 
Salience and Vladimir Drinkman, responsible also in that 
investigation over in the Netherlands. We were able to bring to 
justice Aleksandr Suvorov in the Dave And Busters case where he 
was sentenced to 7 years in prison here domestically. We also 
were able to pick up three different Romanian hackers that were 
responsible for the Subway sandwich shop intrusions that 
occurred in 2008, and we have brought them to justice, where 
the main leader was sentenced to 15 years in prison.
    We have a rich history of being able to effectively 
identify who these targets are, have them arrested, and work 
with our international partners. We have a host of 
international offices, and international working groups, and I 
think it comes back to the relationships that we build 
internationally that are assisting us in bringing these 
different actors to justice.
    Mr. Johnson. Well, obviously, most developed nations that 
have a high degree of sophistication within their networks, 
they are vulnerable to these things as well. So how robust are 
our agreements with other nations to go after the criminals 
that might reside in their countries?
    Mr. Noonan. Absolutely, sir, we do. We have many different 
agreements with numerous other countries over in Europe, and we 
have been working successfully in partnering with those. We 
worked very closely with the British, with the National Crime 
Agency, in the Netherlands with the Dutch High Tech Crime Unit. 
In German we the BKA. We have working groups in the Ukraine, as 
well as an office that we established not too long ago in 
Estonia. So it is through that host of relationships, and in 
the laws that we are enforcing with them, that we are able to 
gather some success in those areas.
    Mr. Johnson. Good. Mr. Zelvin, you testified that no 
country, industry, community, or individual is immune to threat 
of a cyberattack. Does this mean, in your opinion, that you 
believe no one can be impervious to cyberattacks?
    Mr. Zelvin. Sir, I think it is one of those challenges that 
it is like trying to prevent automobile deaths. You can do a 
lot of things, but ultimately unfortunately, people may still 
pass. I think there is a lot more we can do and should do, but 
ultimately, I believe there will be vulnerabilities that 
unfortunately will be exploited by very sophisticated actors.
    Mr. Terry. Thank you, Mr. Johnson.
    At this time I recognize the gentleman from Mississippi, 
Mr. Harper for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thank each of you 
for being here.
    And if I may start with you Agent Noonan, I know this is 
obviously ongoing investigations here, but do you have an early 
indication, without revealing anything you shouldn't as to how 
you think this might have been prevented?
    Mr. Noonan. Again, I don't think it comes back to how it 
could have been potentially prevented. I think what the 
important part here is that we know that this is a 
sophisticated criminal group. The different companies, they had 
a plan, I think is the important takeaway here. The response 
plan is something that every company should also think of. We 
shouldn't think of if this is going to happen.
    We should potentially think when this potentially may 
happen to them. So a response plan is one in which you 
incorporate law enforcement into your response plan. And it 
brought back the information sharing piece. If you don't 
incorporate law enforcement in your plan to help you find and 
mitigate the problem, and then share that information with the 
whole of government, with the infrastructure to better protect 
other infrastructure, that is not necessarily a good plan.
    We obviously would like to see companies have robust 
forensic companies assigned to them so that when an intrusion 
does happen, they are able to go in and effectively quickly 
mitigate it so that there is no longer any bleeding that were 
to occur.
    Additionally, counsel is important for them to have, and 
then also a plan for notification to victims. Again, those are 
the important takeaways that we see in this case.
    Mr. Harper. And are you satisfied in these cases that the 
response has been satisfactory?
    Mr. Noonan. Yes, sir.
    Mr. Harper. OK, thank you.
    Mr. Noonan. Thank you.
    Mr. Harper. Chairwoman Ramirez, if I may ask you a few 
questions.
    Is there overlap between FTC's Safeguards Rule, and the PCI 
data security standards and do the PCI standards incorporate 
provisions of the Safeguards Rule, or do they go beyond the 
Safeguards Rule. Can you shed a little light on that?
    Ms. Ramirez. Sure. I am happy to speak to this. The way the 
FTC approaches its data security enforcement work is that we, 
again, we impose a reasonableness standard so we don't mandate 
or prescribe any specific standard or technology, but we think 
that as a matter of course, a company should of course, look to 
relevant industry standards, best practices in evaluating what 
measures they should have in place.
    Mr. Harper. OK, would the PCI data security standards meet 
the reasonable standards for purposes of Section 5 of the FTC 
act?
    Ms. Ramirez. Every case that we look at is really a fact-
specific one, so I really can't comment on hypotheticals. But 
what I can tell you is that a company should of course be 
looking to industry standards. They can be very valuable, and 
that would be certainly one factor that we would examine in 
looking at any matter.
    Mr. Harper. You know, you make the point that the mere fact 
that breaches occur does not mean a company violated the law, 
and the companies need not have perfect security. Yet, we have 
been told that it is unlikely any company subject to the PCI 
standards that suffers a breach would be found to be 100 
percent compliant at the time of the breach. While the PCI 
standards provide an admirable and needed push to keep 
companies vigilant, would there be problems of making that a 
Federal Standard enforceable by the FTC if it is setting up 
businesses to fail because it is often possible to find some 
violation of the standards?
    Ms. Ramirez. Again, we are going to be looking at each 
situation, in a fact-specific way. We certainly understand that 
there is no perfect solution. Security will not be perfect. We 
have many more investigations than we do actual enforcement 
cases.
    Mr. Harper. How many cases has the Commission brought for 
violation of Safeguards Rule?
    Ms. Ramirez. Of the Safeguards Rule specifically, we have 
brought approximately a dozen cases.
    Mr. Harper. Has industry compliance improved over time as 
the rule becomes more mature and the industry becomes more 
familiar with it?
    Ms. Ramirez. Generally speaking, and I am speaking broadly, 
we continue to see basic failures when it comes to data 
security and the data that we have available to us suggests the 
companies do need to do more in this area.
    Mr. Harper. OK, I yield back.
    Mr. Terry. Thank you.
    At this time, we recognize the gentleman from Florida, Mr. 
Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much and I thank the panel for their testimony.
    This is for the entire panel. Data often moves without 
respect to borders, as you know. Mr. Russo notes in his 
testimony that championing stronger law enforcement efforts 
worldwide can improve payment data security.
    Mr. Noonan, in your testimony, you mentioned successful 
cooperation with law enforcement entities during investigations 
into these cybercrimes. Would you, as well as Mr. Zelvin expand 
on what you believe Congress can do to enhance those 
international efforts going forward? Is there a role for 
examination of this issue, and future trade discussions such as 
the Transatlantic Trade and Investment Partnership?
    Mr. Noonan. I would recommend the continued support for our 
efforts in our international field offices, as well as the 
other working groups in which we are placing strategically 
around the world. We have had a lot of great success in some of 
those Eastern European countries. Within the last 2 years, we 
have had some great successes. We have had an extradition of a 
Romanian citizen from Romania to the United States based on the 
collaboration that we have made here between Romanian 
authorities and U.S. authorities.
    A big part of that is the relationships that the DOJ has 
also expanded in those different countries. The computer 
crimes, intellectual property section, CCIPS as well as the 
Office of International Affairs, have helped us in 
strategically working with those different countries to bring 
criminals that are affecting us here domestically to justice.
    Mr. Bilirakis. Thank you.
    Mr. Zelvin, you are welcome to----
    Mr. Zelvin. Yes, sir.
    My organization is neither a law enforcement, nor an 
intelligence organization. We are purely civilian, and we have 
a relationship with over 200-like CERTS around the world. So it 
is really a technical-to-technical exchange.
    Last week I was in Tel Aviv and in London and I will tell 
you, I got to really see firsthand where our counterparts are, 
and they are making extraordinary progress but in many cases we 
in the United States are leading the way especially in the 
Government's role in cybersecurity.
    So I think a continued engagement, because as Mr. Noonan 
had said, many of these threats are coming from overseas. Many 
come from within our own countries, but it would be far better 
if we could engage with our international partners and have 
them use their legal means to go after these threats, and then 
also provide an ability to cooperate with us such as when we 
find an intrusion in their country to get them to shut it down 
if they have the legal ability.
    Mr. Bilirakis. Thank you.
    Anyone else like to comment on that?
    Ms. Ramirez. Just briefly, if I may.
    I think the international cooperation is a very important 
dimension of this issue. And we engage with international 
counterparts in all of the work, all of the enforcement work 
that we do, and this would be among them.
    Mr. Bilirakis. Thank you. Thank you very much.
    The next question for Chairwoman Ramirez. I represent 
Florida's 12th congressional district. While more and more 
seniors are becoming technologically adept, how would you 
recommend notifying seniors of a data breach in a timely manner 
if they are not reachable by email?
    Ms. Ramirez. I think it is an issue that I am happy to work 
with you on. I think seniors are increasingly becoming more 
adept at email, but of course, if email is not an option then 
mail notification would be appropriate, but we are happy to 
work with the committee on addressing this and other issues.
    We do look and have recently held a workshop on issues 
relating to senior ID theft and understand that this population 
can be particularly vulnerable to these set of issues so I 
think mail notification would be the, you know, one option, but 
there may be other ideas and we would be happy to discuss those 
with you.
    Mr. Bilirakis. Yes, I would like to work with you on that. 
Thank you very much.
    I appreciate it and I yield back.
    Mr. Terry. Thank you.
    At this time the gentleman from West Virginia is recognized 
for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I think we are going to have to go through an awful lot of 
information that is being shared here today so I want to switch 
horses. I think we have got something that we can chew on for a 
little bit.
    So I want to switch horses a little bit to understand a 
little bit about what is happening with the data security with 
the Affordable Care Act, if I could. To what level so to Mr. 
Noonan, Mr. Zelvin, if you could participate with this, maybe 
you can help me.
    In December the HHS has reported that there were 32 
security incidents. Maybe you could say slash breaches have 
occurred with Obamacare. Were the individuals notified? Do you 
know whether or not the individuals were notified?
    Mr. Zelvin. Congressman, I apologize. I am not familiar 
with that. If we can take that for the record, we can get back 
to you.
    Mr. McKinley. If you would, please.
    Mr. Noonan, do you know anything about those breach that 
occurred with Obamacare?
    Mr. Noonan. And the same thing with me, sir. I don't have 
any knowledge of those breaches right now.
    Mr. McKinley. OK. If they were given the standard that we 
have imposed on the private sector, should individuals be 
notified if there are breaches with Federal healthcare? Just 
your opinion.
    Mr. Zelvin. Yes, sir, if there are breaches they should be 
reported and people should have the opportunity to know about 
that, and then also take the adequate precautions.
    Mr. McKinley. Mr. Noonan.
    Mr. Noonan. Yes, sir, I would concur as well.
    Mr. McKinley. You would agree with that.
    There is also a report that came out that some of the 
software that was developed for the Obamacare, was developed in 
Belarus, and there are reports that there may be some concern 
for malware being included in that. Where are we in that 
evaluation because, obviously, the people are still signing up 
and we may have something that is contaminating our system. Can 
any of you share with us what is going on internationally on 
this?
    Mr. Zelvin. Congressman, I can tell you what I know from 
last night, and from this morning things may have changed. But 
the intelligence product that was on that report has been 
withdrawn and is being reevaluated. I believe the White House 
did a statement last night saying that there is no evidence 
that there has been any Belarusian software development in the 
HHS. But HHS is looking at this carefully, and verifying that. 
So I believe that is where we are right now.
    Mr. McKinley. It just may have been someone just----
    Mr. Zelvin. Well, there is something in a report that is 
being reevaluated. And so I think there is some more 
investigation to be done before reaching conclusions.
    Mr. McKinley. Could you get back to us then on that and let 
us know whether or not there is anything. I didn't understand 
why we were having any of our software developed in Belarus 
anyway, so, if there is something you can share with us, I 
would sure like to understand that.
    Mr. Zelvin. Absolutely, Congressman. To the best of my 
knowledge right now, there was no software that was developed 
in Belarus.
    Mr. McKinley. OK.
    Mr. Zelvin. And HHS is looking at it closely.
    Mr. McKinley. Thank you.
    For Illinois, I can't see your name tag from here on the 
thing, but ma'am, could you, has the state of Illinois ever had 
a data breach?
    Ms. Madigan. Yes. And in fact in our law, there is a 
requirement that state agencies notify individuals when their 
personal information has been compromised.
    Mr. McKinley. Do you use some kind of encryption 
extensively? Do you have some encryption that you use for your 
data?
    Ms. Madigan. Different agencies will handle it different 
ways, but they are all requirements in terms of how data is 
handled for state agencies.
    Mr. McKinley. OK. Thank you very much.
    I yield back the balance of my time.
    Mr. Terry. Thank you for yielding back.
    No other members are here; therefore, that ends panel 
number one. I do want to follow up.
    So, the talk about the criminal syndicate, there was a 
story that there was an 18-year old Russian boy that developed 
this in his basement, this malware; is that accurate?
    Mr. Noonan. Sir, don't believe everything you see in the 
media, please.
    Mr. Terry. I have learned that, too.
    All right. Thank you. The first panel is dismissed, and we 
thank you. We may have questions submitted to you. We will have 
those to you within about 14 days if there are any, and we 
would appreciate about a 14-day turnaround in answers. Thank 
you.
    We will give a few minutes break here so we can get some 
water or something, and then we will be ready for our panel, 
second panel.
    [Recess.]
    Mr. Terry. Well, since everyone's seated, let's go.
    So, I apologize. I was hopeful that that first panel would 
not last this long, but it did. So thank you, and I hope that 
doesn't impact your rest of the schedule for the day, but 
appreciate you staying around.
    So, our second panel of the day is the nongovernment panel. 
We have Michael Kingston, senior vice president and chief 
information officer of Neiman Marcus Group, then John Mulligan, 
executive vice president and chief financial officer, Target 
Brands, Incorporated, Bob Russo, general manager of PCI 
Security Standards Council, and then Phillip Smith, senior vice 
president for Trustwave. Thank you all for being here today.
    As we did with the first panel, we will go from my left. 
So, Mr. Mulligan, you will start and you will have 5 minutes.

 STATEMENTS OF MICHAEL KINGSTON, SENIOR VICE PRESIDENT & CHIEF 
INFORMATION OFFICER, THE NEIMAN MARCUS GROUP; JOHN J. MULLIGAN, 
  EXECUTIVE VICE PRESIDENT & CHIEF FINANCIAL OFFICER, TARGET 
 BRANDS INCORPORATED; BOB RUSSO, GENERAL MANAGER, PCI SECURITY 
   STANDARDS COUNCIL, LLC; AND PHILLIP J. SMITH, SENIOR VICE 
                      PRESIDENT, TRUSTWAVE

                 STATEMENT OF JOHN J. MULLIGAN

    Mr. Mulligan. Good morning, Chairman Terry, Ranking Member 
Schakowsky, and members of the subcommittee.
    My name is John Mulligan. I am executive vice president and 
chief financial officer of Target. I appreciate the opportunity 
to be here today to discuss important issues surrounding data 
breaches and cybercrime.
    As you know, Target recently experienced a data breach 
resulting from a criminal attack on our systems. To begin with, 
let me say how deeply sorry we are for the impact this incident 
has had on our guests, your constituents.
    We know this breach has shaken their confidence in Target, 
and we are determined to work very hard to earn it back. At 
Target, we take our responsibility to our guests very 
seriously, and this attack has only strengthened our resolve. 
We will learn from this incident, and as a result, we hope to 
make Target and our industry more secure for consumers in the 
future.
    I would now like to explain the events of the breach as I 
currently understand them. Please recognize that I may not be 
able to provide specifics on certain matters because the 
criminal and forensic investigations remain active and ongoing. 
We are working closely with the Secret Service and the 
Department of Justice on the investigation to help them bring 
to justice the criminals who committed this wide scale attack 
on Target, American business, and consumers.
    On the evening of December 12th, we were notified by the 
Justice Department of suspicious activity involving payment 
cards used at Target stores. We immediately started an internal 
investigation. On December 13th, we met with the Justice 
Department and Secret Service. On December 14th, we hired an 
independent team of experts to lead a thorough forensics 
investigation. On December 15th, we confirmed that criminals 
had infiltrated our system, had installed malware on our point 
of sale network, and had potentially stolen guest payment card 
data. That same day we removed the malware from virtually all 
registers in our U.S. stores.
    Over the next two days, we began notifying the payment 
processors and card networks, preparing to notify our guests 
and equipping our call centers and stores with the necessary 
information and resources to address the concerns of our 
guests. Our actions leading up to our public announcement on 
December 19th and since have been guided by the principle of 
serving all guests, and we have been moving as quickly as 
possible to share accurate and actionable information with the 
public.
    What we know today is that the breach affected two types of 
data, payment card data, which affected approximately 40 
million guests and certain personal data which affected up to 
70 million guests. We believe the payment card data was 
accessed through malware placed on our point of sale registers. 
The malware was designed to capture the payment card data that 
resides on the magnetic strip prior to its inscription within 
our systems.
    From the outset, our response to the breach has been 
focused on supporting our guests and strengthening our 
security. In addition to the immediate steps I already 
described, we are taking the following concrete actions.
    First, we are undertaking an end-to-end forensic review of 
our entire network and will make security enhancements as 
appropriate.
    Second, we increased fraud detection for our Target Red 
Card guests. To date, we have not seen any fraud on our 
proprietary credit and debit cards due to this breach, and we 
have only seen a very low amount of additional fraud on our 
Target Visa card.
    Third, we are reissuing new Target credit and debit cards 
immediately to any guest who requests one.
    Fourth, we are offering 1 year of free credit monitoring 
and identity theft protection to anyone who has ever shopped in 
our U.S. Target stores.
    Fifth, we informed our guests that they have zero liability 
for any fraudulent charges on their cards arising from this 
incident, and sixth, Target is accelerating our investment in 
chip technology for our Target Red Cards and our stores point 
of sale terminals.
    For many years, Target has invested significant capital and 
resources in security technology, personnel, and processes. We 
had in place multiple layers of protection, including 
firewalls, malware detection, intruding detection and 
prevention capabilities, and data loss prevention tools, but 
the unfortunate reality is that we suffered a breach. All 
businesses and their customers are facing increasingly 
sophisticated threats from cyber criminals. In fact, news 
reports have indicated that several other companies have been 
subjected to similar attacks.
    To prevent this from happening again, none of us can go it 
alone. We need to work together. Updating payment card 
technology and strengthening protections for American consumers 
is a shared responsibility and requires a collective and 
coordinated response. On behalf of Target, I am committing that 
we will be an active part of the solution.
    Members of the subcommittee, I want to once again reiterate 
how sorry we are for the impact of this incident has had on 
your constituents, our guests, and how committed we are to 
making it right.
    Thank you for your time today.
    Mr. Terry. Thank you.
    [The prepared statement of Mr. Mulligan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kingston, you are now recognized for 5 minutes.

                 STATEMENT OF MICHAEL KINGSTON

    Mr. Kingston. Chairman Terry, Ranking Member Schakowsky, 
members of the subcommittee.
    Good morning, my name is Michael Kingston, and I am the 
chief information officer at Neiman Marcus Group. I want to 
thank you for your invitation to appear today to share with you 
our experiences regarding the recent criminal cybersecurity 
incident at our company. I have submitted a longer written 
statement and appreciate the opportunity to make some brief 
opening remarks.
    We are in the midst of an ongoing forensic investigation 
that has revealed a cyber attack using very sophisticated 
malware. From the moment I learned there might be compromise of 
payment card information involving our company, I have 
personally led the effort to ensure that we were acting 
swiftly, thoroughly, and responsibly to determine whether such 
a compromise had occurred, to protect our customers and the 
security of our systems, and to assist law enforcement in 
capturing the criminals. Because our investigation is ongoing, 
I may be limited in my ability to speak definitively or with 
specificity on some issues, and there may be some questions to 
which I do not have the answers. Nevertheless, it is important 
to us as a company to make ourselves available to you to 
provide whatever information we can to assist you in your 
important work.
    Our company was founded 107 years ago. One of our founding 
principles is based on delivering exceptional service to our 
customers, in building long lasting relationships with them 
that have spanned generations. We take this commitment to our 
customers very seriously. It is part of who we are and what we 
do daily to distinguish ourselves from other retailers. We have 
never before been subjected to any sort of significant 
cybersecurity intrusion, so we have been particularly disturbed 
by this incident.
    For our ongoing forensic investigation, we have learned 
that the malware which penetrated our system was exceedingly 
sophisticated, a conclusion the Secret Service has confirmed. A 
recent report prepared by the Secret Service crystallized the 
problem when they concluded that a specific type of malware 
comparable and perhaps even less sophisticated than the one in 
our case, according to our investigators, had a zero percent 
detection rate by antivirus software. The malware was evidently 
able to capture payment card data in realtime after a card was 
swiped and had sophisticated features that made it particularly 
difficult to detect, including some that were specifically 
customized to evade our multi-layered security architecture 
that provided strong protection of our systems and customer 
data.
    Because of the malware sophisticated anti-detection 
devices, we did not learn that we had an actual problem in our 
computer system until January 2nd, and it was not until January 
6th when the malware and its outputs had been disassembled and 
decrypted enough that we were able to determine that it was 
able to operate in our systems. Then, disabling it to ensure it 
was not still operating took until January 10th. That day we 
sent our first notices to customers potentially affected and 
made widely reported public statements describing what we knew 
at that point about this incident.
    Simply put, prior to January 2nd, despite our immediate 
efforts to have two separate firms of forensic investigators 
dig into our systems and attempt to find any data security 
compromise, no data security compromise in our systems have 
been identified.
    Based on the current state of evidence and the ongoing 
investigation, one, it now appears that the customer 
information that was potentially exposed to the malware was 
payment card information from transactions in 77 of our 85 
stores between July 15th and October 30th, 2013, at different 
periods of time within this date range in each store.
    Two, the number of payment cards used at all stores during 
this period was approximately 1.1 million. This is the maximum 
number of accounts potentially exposed to the malware, although 
the actual number appears to be lower since the malware was not 
active every day at every store during this period.
    Three, we have no identification that transactions on our 
Web sites or at our restaurants were compromised. Four, PIN 
data was not compromised as we do not have PIN pads and we do 
not request PINs. And five, there is no indication that Social 
Security numbers or other personal information were exposed in 
any way.
    We have also offered to any customer who shopped with us in 
the last year at either Neiman Marcus Group stores or Web 
sites, whether their card was exposed to the malware or not, 1 
year of free credit monitoring and identity theft insurance. We 
will continue to provide the excellent service to our customers 
that is our hallmark, and I know that the way we responded to 
the situation is consistent with that commitment.
    Thank you for your invitation to testify today, and I look 
forward to answering your questions.
    Mr. Terry. Thank you.
    [The prepared statement of Mr. Kingston follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Mr. Russo, you are recognized for 5 minutes.

                     STATEMENT OF BOB RUSSO

    Mr. Russo. Thank you.
    My name is Bob Russo, and I am the general manager of the 
PCI Security----
    Mr. Terry. Can you pull the microphone a little closer to 
you?
    Mr. Russo. Sorry. It is on now.
    Mr. Terry. And a little closer.
    Mr. Russo. As I said, my name is Bob Russo, and I am the 
general manager of the PCI Security Standards Council, a global 
industry initiative and membership organization focused on 
security payment card data.
    Our approach to an effective security program combines 
people, process, and technology as key parts of payment card 
data protection. We believe the development of standards to 
protect payment card data is something the private sector, and 
in particular, PCI, is uniquely qualified to do. The global 
reach, expertise, flexibility of PCI make it extremely 
effective.
    Our community of over 1,000 of the world's businesses is 
tackling data security challenges from simple issues like 
password. In fact, ``password'' is still the most commonly used 
password out there to really complicated issues like proper 
encryption.
    We understand consumers are upset when their payment card 
data is put at risk, and we know the harm caused by data 
breaches. The council was created to proactively protect 
consumers' payment card data. Our standards represent a solid 
foundation for a multi-layered security approach. We focus on 
removing card data if it is no longer needed. Simply put, if 
you don't need it, don't store it. And if it is needed, then 
protect it and reduce incentives for criminals to steal it.
    Let me tell you how we do that. The data security standard 
is built on 12 principles capturing everything from physical 
security to logical security. This standard is updated 
regularly through feedback from our global community. In 
addition, we have developed other standards that cover 
software, point of sale devices, secure manufacturing of cards 
and much, much more. We work on technologies like tokenization 
and point-to-point encryption. Tokenization and point-to-point 
inscription work in concert with PCI standards to offer 
additional protections.
    Another technology, EMV chip is an extremely effective 
method of reducing card fraud in a face-to-face environment. 
That is why the council supports its adoption in the U.S. 
through organizations such as the EMV migration from, and our 
standards support EMV today in other worldwide markets. 
However, EMV chip is only one piece of the puzzle. To move to 
EMV and to do no more would not solve this problem. Additional 
controls are needed to protect the integrity of payments online 
and in others' channels. These include encryption, tamper-
resistant devices, malware protection, network monitoring, and 
much, much more. These are all addressed in the PCI standards.
    Used together, EMV chip and PCI can provide strong 
protections for payment card data, but effective security 
requires more than just standards. Standards without supporting 
programs are only tools and not solutions. The council's 
training and certification programs have educated tens of 
thousands of individuals and make it easy for businesses to 
choose products that have been lab tested and certified as 
secure.
    Finally, we conduct global campaigns to raise awareness of 
payment card security. We welcome the Committee's attention to 
this critical issue. The recent compromises underscore the 
importance of a multi-layered approach to payment card security 
and there are clear ways in which we think the Government can 
help.
    For example, leading stronger law enforcement efforts 
worldwide by encouraging stiff penalties for these crimes, 
promoting information sharing between the public and private 
sector also merits attention. The council is an active 
collaborator with government. We work with NIST, with DHS, with 
many government organizations. We are ready and willing to do 
much more. The recent breaches underscore the complex nature of 
the payment card security. A multifaceted program cannot be 
solved by a single technology, standard, mandate, or 
regulation. It cannot be solved by a single sector of society. 
We must work together to protect the financial and privacy 
interests of consumers.
    Today, as this committee focuses on recent breaches, we 
know that the criminals are focusing on inventing the next 
attack vector. There is no time to waste. The PCI Security 
Standards Council and business must continue to provide a 
multi-layered security protection while Congress leads the 
efforts to combat global cyber crimes that threaten us. We 
thank the Committee for taking a leadership role in seeking 
solutions to one of the largest security concerns of our time.
    Mr. Terry. Thank you, Mr. Russo.
    [The prepared statement of Mr. Russo follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Mr. Smith, you are now recognized for 5 minutes.

                 STATEMENT OF PHILLIP J. SMITH

    Mr. Smith. Good morning, Chairman Terry, Ranking Member 
Schakowsky, subcommittee members, staff, and ladies and 
gentlemen.
    I want to thank you for the opportunity on behalf of 
Trustwave to provide witness testimony on this important issue 
related to data breaches.
    I am both a former special agent of the United States 
Secret Service and a senior trial attorney at the Department of 
Justice Terrorism and Violent Crimes section. My law 
enforcement experience in this area includes investigation, 
prosecution of criminal credit card fraud, access device fraud, 
and counterfeiting. I left the Justice Department in 2000 to 
join Trustwave, a now global information security and 
compliance services and technology company. I currently serve 
in Trustwave's executive team as senior vice president, and I 
was general counsel for 12 years.
    Businesses and government agencies hire Trustwave to help 
fight cyber crime, protect their sensitive data, and reduce 
risk. Trustwave has customers ranging from the world's largest 
multi-national companies to small and medium-sized businesses 
in 96 countries. We specialize in the following areas: 
Compliance and risk management, managed and cloud-based 
security services, as well as threat intelligence, ethical 
hacking, security research, and we also train law enforcement 
on how to investigate network intrusion and data breach cases.
    Today, I would offer our observations and recommendations 
related to data breach and broader information security trends. 
It is important I note that as a company we do not comment or 
speculate on specific data breaches, and as such, we will not 
be offering testimony today related to companies involved in 
the latest string of data breaches. However, I believe our 
company's experience in investigating thousands of data 
breaches over the past several years, our advanced security 
research and intelligence coming from our large global client 
footprint will be of value to you and the industry as a whole.
    My submitted written testimony discusses how card data is 
stolen through malware attacks, the value of the Payment Card 
Industry Data Security Standard, and why businesses must go 
beyond PCI for increased security and technologies and 
processes that can help. While I generally have time to discuss 
each topic in depth, I would like to highlight a few items.
    Each year our company publishes statistics and observations 
from real-world data breach investigations in our Trustwave 
Global Security Report. The focus of the report is around cyber 
crime, states that attacks are carried out by professional 
criminals, and most of them follow logical patterns as 
described by the Secret Service. The 2013 Global Security 
Report highlights data our experts analyzed from more than 450 
data breach, incident response investigation locations, 
thousands in penetration tests, millions of Web site and web 
application attacks, tens of billions events.
    The report states the retail industry is the top target in 
2012, making up 45 percent of our investigation. Food and 
beverage industry was second, followed by the hospitality 
industry. Those rankings did not change in 2013. Cardholder 
data was the primary target. Mobile malware increased 400 
percent in 2012. Seventy-three percent of the victims were 
located in the United States. Almost all the point of sale 
breach investigations involved targeted malware. SQL injection 
and remote access made up 73 percent of the infiltration 
methods used by criminals, took businesses an average of 210 
days to detect a breach, most took more than 90 days, and 5 
percent took more than 3 years. Only 24 percent detected the 
intrusion themselves. Most were informed by law enforcement.
    Web applications emerged the post popular attack vector, E-
commerce sites being the most targeted asset. Weak passwords 
with ``Password1'' being the most common password of choice.
    I am running short on time, and refer to my written 
testimony where I talk about many different security areas as 
part of the defense and depth strategy, recommending multiple 
layers of defense, detection, response, and ongoing training. I 
would, however, make the following observations. PCI Data 
Security Standard plays a critical role that has increased 
awareness around securing data in the payment industry. The 
threat landscape is more complex than ever, and keeping up with 
and complying with the standard simply isn't enough.
    A common misperception is that PCI was designed to be a 
catch-all for security. We believe it serves as a good baseline 
for security, giving businesses guidelines for basic security 
controls to protect cardholder data. And we heard discussions 
today about chip-and-PIN, end-to-end encryption and other 
technologies, and these are all good, but there is no silver 
bullet. A multi-layered approach to security involves people, 
process, technology, and innovation, and I would take these few 
minutes to highlight 3 particular ones.
    Businesses should implement an incident response plan that 
includes advanced detection techniques, containment strategies, 
and response technologies. Web applications are a high value 
target for attackers because they are easily accessible over 
the net. Web applications are often at businesses' front door 
and often connected to systems that contain private data. While 
monitoring more than 200,000 Web sites, our researchers found 
16,000 attacks occur on web applications per day. This is why 
businesses need to adopt protections that include the ability 
to detect vulnerabilities and prevent web applications.
    Obviously, anti-malware is a big issue here, and what 
companies need to do is to defend against this is deploy 
gateways, and I stress this is not anti-virus technology. This 
is, gateways specifically help to protect businesses in 
realtime from threats like malware and zero-day vulnerabilities 
and data loss.
    I want to thank the Chairman and Ranking Member Schakowsky 
for the opportunity to be here today, and happy to answer any 
questions.
    Mr. Terry. Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. And that does conclude the testimony of our 
panel, and now it is time for us to ask you questions.
    And I get to go first, so I recognize myself for 5 minutes.
    Mr. Smith, based on your professional opinion in this 
industry, are we--the United States suffering an increased 
onslaught of data breaches and attacks or is it just simply we 
are paying more attention in the media?
    Mr. Smith. No, we are suffering more attacks, that is for 
sure,
    Mr. Terry. Can you quantify that in any way? Do you know 
how many----
    Mr. Smith. In numbers of attack? I mean I can only speak 
for our company and how many we are involved in each year, 
which involves, you know, a number of different investigations 
as well as multi-national locations within----
    Mr. Terry. Do you have an opinion why that has increased, 
the number of attacks have increased?
    Mr. Smith. I think any time there is something of value, 
and the Web now gives the ability for these multi-national 
attacks to occur from anywhere in the world, so as the 
technology increases, so will the attacks, so will the value of 
that data----
    Mr. Terry. Right.
    Mr. Smith [continuing]. That people are after.
    Mr. Terry. Appreciate that. Thank you.
    And for Mr. Mulligan and Mr. Kingston, I appreciate that 
you accepted our invitation to come here. I think people should 
know that you didn't have to accept that invitation, you don't 
have to be here, but you agreed to be here, and A, I think that 
speaks well for both of the companies that you work for and 
your respect for the consumer to go on the record about what 
occurred and what you are offering to your customers. I want to 
thank you for that. It doesn't mean we don't ask you tough 
questions.
    So, let me start off the same question to both Mr. Mulligan 
and Mr. Kingston. Both of you, you suffered point of sale 
attacks, and at least with Target there was a portion of that 
that was unencrypted and you were able to get the information 
in plain language, plain text. Is that a shortcoming? Is that 
standard? How much of a surprise to you or not surprise that 
there was that vulnerability at the point of sale, Mr. 
Mulligan?
    Mr. Mulligan. Mr. Chairman, we know today----
    Mr. Terry. Pull your microphone a little closer
    Mr. Mulligan. We know today in the U.S. that credit card 
information, payment card information, comes into point of sale 
systems from the magnetic strip unencrypted. In our case, that 
data was captured prior to us encrypting it. We have seen in 
other geographies around the world where chip-and-PIN or chip-
enabled technology has been deployed, the fraud related to 
payment cards has come down dramatically, and that is why we 
have been supporters of that technology over a very long period 
of time.
    Mr. Terry. All right. Mr. Kingston.
    Mr. Kingston. What we learned in our investigation, 
Chairman, is that the information was scraped at a time 
immediately following the swipe as well in basically 
milliseconds.
    Mr. Terry. In essence, commingled data so it was 
undetectable, hidden in plain sight?
    Mr. Kingston. Literally milliseconds before it is sent 
through encrypted tunnels to payment processor for 
authorization.
    Mr. Terry. Wow. Back to Mr. Mulligan. Have you been able to 
determine how they were able to get into the system and place 
the malware at that very sensitive point?
    Mr. Mulligan. That is my understanding the point of access 
was a compromised set of vendor credentials or log-on I.D. and 
password. Beyond that, we have an end-to-end review, forensic 
review of all of our systems to understand that particular 
question is one we share with you, Mr. Chairman.
    Mr. Terry. So, it was a process failure?
    Mr. Mulligan. We don't understand that today. At the 
completion of our investigation, we are looking forward to 
getting the facts about what transpired.
    Mr. Terry. All right. Mr. Kingston.
    Mr. Kingston. At this point in our investigation, we have 
not yet found any evidence of how attackers were able to 
infiltrate our network.
    Mr. Terry. A lot of discretion on breach notification. Tell 
us--first of all, we want to make sure that a consumer whose 
data, whether it was their financial or personally identifiable 
information, is notified in a timely manner. There is a 
perception that perhaps you discover breach and you should push 
send for notification. Does it really work that way? How much 
time is a reasonable amount of time before you notice a 
consumer of a breach? Mr. Mulligan.
    Mr. Mulligan. Our focus was on providing certainly speed in 
getting notice quickly, we think, is important. Balancing that, 
and the lens that we were looking through was for our guests, 
providing them accurate information to help them understand 
what went on, and then actionable information, what could they 
do about it.
    In addition, given the magnitude of our enterprise, we knew 
we would get significant requests from our guests, and we want 
to be prepared with staffing up our call centers, having our 
stores have the appropriate resources to respond to their 
requests, and I think all of that is how we approached this 
from a notification.
    Mr. Terry. How many days from the time that you were told 
of the breach versus when you were able to send them notice 
out?
    Mr. Mulligan. From the time we found the breach, we found 
the malware on our system to the time we notified was 4 days.
    Mr. Terry. All right. Mr. Kingston, same questions.
    Mr. Kingston. So we also at Neiman Marcus believe that 
prompt and specific notification is the best course of action. 
I think there are two important things that need to be 
established in order for that to happen and happen in a 
reasonable way as you ask the question. The first is 
understanding that you actually do have a breach or some sort 
of risk of attack, and so in our case we learned that on 
January 6th.
    I think the second important thing is to protect customers 
from any potential further harm, to make sure that you 
contained, in our case, the malware that was discovered in our 
systems. It took us 4 days to do that, and at that time, on 
January 10th, we immediately began notifying customers.
    Mr. Terry. All right. 4 days for each of you. All right. 
Thank you.
    And I recognize the Ranking Member Jan Schakowsky from 
Illinois.
    Ms. Schakowsky. Thank you.
    Just a quick question to Mr. Russo. I think you do good 
work, but you aren't suggesting that we shouldn't act as a 
Congress, are you, in order to set some standards?
    Mr. Russo. No, certainly I think there are plenty of things 
that can be done, not the least of which is law enforcement and 
information sharing.
    Ms. Schakowsky. I understand. I am asking that really as a 
yes or no question. Are you suggesting that it is inappropriate 
or unnecessary for Congress to act on standards, et cetera?
    Mr. Russo. I don't know. I have no opinion in that area.
    Ms. Schakowsky. OK. I wanted to ask you, Mr. Kingston. You 
discovered the breach internally? Neiman Marcus discovered it, 
the breach itself?
    Mr. Kingston. The first idea that we had that there was 
anything potentially wrong in our system is on January 2nd when 
our forensic investigator brought to our attention that they 
had found some suspicious malware potentially capable of 
scraping card data. It wasn't until the 6th because it took 
them 4 days, based on the sophistication of this malware, to 
actually decrypt it and decompose it to understand that it 
actually could work in our----
    Ms. Schakowsky. Who informed you?
    Mr. Kingston. Our forensic investigator.
    Ms. Schakowsky. Our?
    Mr. Kingston. We hired a forensic investigator.
    Ms. Schakowsky. Oh, your forensic investigator.
    Mr. Kingston. Yes, forensic investigator.
    Mr. Terry. Not Mr. Smith.
    Ms. Schakowsky. OK. And Mr. Mulligan, you said that the 
Justice Department informed you.
    Mr. Mulligan. They came to us on December the 12th and 
indicated they had a handful of cards that had been 
compromised, and potentially one of the locations that was 
compromised with Target. At that point, there was no indication 
or evidence that there had been a breach. We found that breach 
3 days later and shut it down within 12 hours.
    Ms. Schakowsky. I actually wanted to talk more about the 
breach of marketing data and which affected fully one-fourth to 
one-third of all American adults, which is pretty serious, and 
I am asking these questions because I believe the breach of 
marketing data represents really a serious threat to consumer. 
Payment card breaches are severe incidents that criminals tend 
to obtain card data, spend money when they can, and then move 
on, but names and contact information can be used in phishing 
and social engineering schemes to try to perpetrate identity 
theft, and so while harm from payment card breaches are acute, 
harm from nonfinancial breaches linger, identity theft lasts.
    So, I wanted to ask you about the way you informed the 
consumers who had these marketing data breaches. Some consumers 
received an email message during the week of January 12th 
notifying them of a breach of Target customer information and 
received that message from <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cf9baebda8aabb81aab8bc8fbbaebda8aabbe1ada9a6ffe1aca0a2">[email&#160;protected]</a>, and 
scammers sometimes use legitimate names of companies and many 
people were alarmed when they looked up the domain name and 
found ``permission denied'' message. And so I wanted to know 
how Target determined it would contract with a company to send 
these messages and what you are doing about the confusion that 
consumers may have felt.
    Mr. Mulligan. Congresswoman, we wanted to notify, confirmed 
on January 9th that that data had left our system, and on 
January 10th we started notifying consumers. We sent out 56 
million email addresses. That was the number we had available 
to us. We also, as we did in the first breach, prior to broad 
public disclosure of the issue so that everyone would have 
information related it to, but one of the things we did and a 
couple of things we did in response to some of the concerns you 
are talking about, first, we communicated to our guest that 
there was a single of truth on our corporate target.com Web 
site. Any communication coming from Target was located there 
and could be trusted.
    Second, we provided free credit monitoring which provides 
free identity theft protection, identity theft insurance for--
--
    Ms. Schakowsky. Let me refer to that. There was a briefing 
organized Monday by the Bipartisan Privacy Caucus, Ed 
Mierzwinski of U.S. PIRG who said that credit monitoring, such 
as the one offered by Target, doesn't stop fraud on existing 
accounts and won't prevent new account identity theft. So I'm 
wondering what the rationale is for this program, its 
performance so far, and any ongoing alternatives or 
improvements being considered or developed by Target.
    Mr. Mulligan. My understanding, Congresswoman, is that 
consumers have no liability for any fraud which occurs on their 
cards as a result of this breach. A part of the package that we 
offered in the free credit monitoring is identity theft 
protection, identity theft insurance, and access to a frauds 
protection specialist so that any guest who has ever shopped a 
Target store has the ability to contact them well past the year 
and ensure that their data is safe.
    Ms. Schakowsky. So you would disagree with that conclusion 
that it doesn't stop fraud on existing accounts and won't 
prevent new account identity theft?
    Mr. Mulligan. I can't speak to that data specifically. What 
I can tell you is consumers have no liability for fraud on 
their accounts that are a result of our breach.
    Ms. Schakowsky. You are talking about fraud of----
    Mr. Mulligan. Of existing accounts. I am sorry.
    Ms. Schakowsky. Are you talking about fraud in a purchase? 
I am talking about identity theft.
    Mr. Mulligan. And we provide identity theft protection as 
part of the free credit monitoring.
    Ms. Schakowsky. Thank you.
    Mr. Terry. Thank you.
    I now recognize the vice chairman Mr. Lance of New Jersey.
    Mr. Lance. Thank you very much. Mr. Chairman
    To Mr. Mulligan. You testified that you were informed of 
the breach by law enforcement on December 12th and 13th, hired 
a forensic firm on the 14th, and on the 15th you both 
discovered the infiltration, removed the malware from your 
point of sale network. If it was relatively easy to find the 
malware once you were made aware of it, why wasn't it detected 
through your existing information security procedures?
    Mr. Mulligan. It is excellent question, Congressman, one we 
have asked many times. Our ongoing forensic investigation, we 
believe, will provide the facts of what transpired and why the 
significant investments we have made in multiple ways of 
detecting and ensuring our systems are safe did not detect 
this.
    Mr. Lance. Can you give the committee an estimate as to 
when you might know the answer to that question?
    Mr. Mulligan. That investigation is being led by our 
forensic investigator. They will take the time they need to 
assess all of the facts, and certainly from that there will be 
learnings and we will take action, so I don't have perspective 
on how long that will take.
    Mr. Lance. Thank you.
    In addition to the 40 million payment card accounts that 
were breached, your company also detected a breach involving 
other personal information in 70 million consumers. Do you 
know, Mr. Mulligan, how many of the 70 million accounts would 
trigger a notice of breach under existing state laws.
    Mr. Mulligan. I am not familiar with that, but as we 
considered that, what was important is, as we have had accurate 
and actionable information, we have disclosed information to 
the public, and that was our approach there. On January 9th, it 
was confirmed that that data was extracted from our systems, 
and on January 10th we provided broad public notice and began 
to email those guests for which we had email addresses.
    Mr. Lance. Thank you.
    To Mr. Kingston at Neiman Marcus. From the time you first 
realized you had an actual problem in your system, and I 
believe that was January 2nd, until you disassembled the 
malware on January 10th, how did you conduct business with your 
consumers? Were POS terminals used during that timeframe to 
accept payments, and if so, how was that decision made?
    Mr. Kingston. So, we did continue to conduct business for 
our customers during that time. However, as we were learning 
throughout the investigation more about this particular 
sophisticated attack, we immediately began implementing 
additional controls on top of all of the multi-layered security 
controls that we had in place at that time, and so being very, 
very careful with our forensic investigators as well as our 
internal investigation to closely monitoring for any further 
suspicious activity.
    Mr. Lance. Do you know yet whether the suspicious activity 
increased between January 2nd and January 10th?
    Mr. Kingston. We have not seen any indication of that, no.
    Mr. Lance. So that is an open question or are you likely to 
concluded that----
    Mr. Kingston. No additional suspicious activity was noted.
    Mr. Lance. Thank you.
    To the panel in general, as card security evolves, it seems 
as though the chip is a better mouse trap. With a chip enabled 
card, the critical pieces of consumer information are obscured 
from would be thieves, and the ability to prevent card 
duplication is achieved. But there are two types of chip 
enabled cards, as I understand it, those that require a PIN and 
those that require signature for authorization. To our experts, 
what is the difference between the two and what do you believe 
is preferable?
    Mr. Russo, why don't we begin with you.
    Mr. Russo. Well, the combination of PCI and EMV in any 
form, be that chip-and-PIN, be that chip and signature, is a 
powerful, powerful solution for as you indicated face-to-face 
fraud and counterfeit cards. However, there are other channels 
that that data can still be used, and so the powerful 
combination of PCI and EMV, once again, in any form is a 
powerful combination, and I think is something that needs to be 
considered.
    Mr. Lance. And from your professional perspective, who 
should consider that? Should this be required statutorily by 
the Congress or should this be determined at state capitals or 
should it be at the option of the private sector?
    Mr. Russo. That is beyond the purview of what the standard 
and the security council does. Basically, we are responsible 
for securing that data in whatever form it comes in, so be it 
chip-and-PIN, chip and signature, regardless of who have 
determines what it is going to be and when it is going to be, 
our job is to make sure that that is protected.
    Mr. Lance. Thank you, Mr. Russo.
    Mr. Smith, do you have an opinion on my question?
    Mr. Smith. I think the important point here is it is an 
additional layer of secure, right. There is no silver bullet 
here. There is multiple layers that need to be put in place. 
Chip-and-PIN with end-to-end encryption will certainly help 
matters, but again, nothing is going to stop the data breaches
    Mr. Lance. And would you require this as a matter either a 
statutory law or rule and regulation or does that go beyond 
what is probably appropriate for Congress, given the fact that 
technology advances as rapidly as it does?
    Mr. Smith. Again, the chip-and-PIN technology has been 
around for a long time. I think a lot of effort should be put 
for new technology in securing mobile payments and things like 
that. The technology is changing so quickly. The attack factors 
are going to change, right, so much more is going to the mobile 
side. So, implementing chip-and-PIN is a good thing for the 
face-to-face transactions, but having innovation towards mobile 
payments and other areas is just as important. Again, it is 
defense in depth.
    Mr. Lance. Thank you.
    I have 12 seconds left. I look forward to working with 
everyone on the committee, and I personally enjoy shopping at 
Target, and I think my wife at Neiman Marcus.
    Mr. Terry. Mr. Yarmuth, you are now recognized for 5 
minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Likewise, long time customer, first time questioner, and I 
appreciate your testimony and your candor and forthrightness, 
particularly from Target and Neiman Marcus, and not that you 
are not being forthright.
    One thing that I am curious about is that while we have 
some more instances of this type of breach, and I don't know if 
you want to speculate why people might have singled out Target 
and Neiman Marcus among a group of retailers, but obviously 
there are a lot of retailers out there, many of whom with 
probably as much of a high profile as you, and my question is, 
are you aware, are you able to discuss with your colleagues in 
the industry whether they have been able to head off any cyber 
attack that might distinguish them in some way from your 
operations, or have you been informed by law enforcement of any 
other attacks that have been fended off? And I open it up to 
Mr. Russo and Mr. Smith as well.
    Mr. Mulligan. Maybe I can start. We took several steps, 
once we verified there was malware in our point of sale 
systems. We have an ongoing relationship with law enforcement 
and certainly shared that with them. We also shared the malware 
with security firms who work with all businesses to look for 
these types of malware.
    Beyond that, we have pushed for and are beginning an 
initiative with the retail industry around information sharing 
across all retailers to share this kind of information. It is 
an evolving threat. It is a shared responsibility for all of 
us, and we believe information sharing is one path to 
understanding the evolving threat and how we will collectively 
deal with it.
    Mr. Yarmuth. I am just curious as to whether there is any 
indication that you have from any other source that somebody 
tried to attack Sak's Fifth Avenue, somebody tried to attack 
Walgreen, somebody tried to attack Wal-Mart, and they had 
failed where they succeeded in your instance. Is there any 
evidence of that somewhere?
    Mr. Smith. I will take a look at that. I think we describe 
this as a battleground every day. There are attacks going on 
constantly and those attacks are being defeated. The situations 
we are talking about are, again, sophisticated malware, but 
every day, retailers, banking industry, they are defending 
their networks against ongoing attacks, and I think that is an 
important point that there is a lot of effort going on today 
and will continue to go on. And again, increasing innovation 
around security technology is an important part of that, and I 
think that is where a lot of the players can come together and 
spur that innovation.
    Mr. Yarmuth. All right. Is there any legal impediment to 
your comparing notes and talking to other competitors even? Is 
that something that should be, you say you are sharing 
information but----
    Mr. Mulligan. We can totally benchmark, too, as well. Part 
of our ongoing assessment of all our particular program is to 
benchmark against other retailers and ensure that collectively 
we are providing the best protection.
    Mr. Yarmuth. But specifically with regard to Target, there 
have been reports that some individuals received Target's 
notification of a data breach when they have never shopped at 
Target and some of it is a decade old. Are those reports 
accurate, and if that is the case, how would they be in your 
database if they had never shopped there?
    Mr. Mulligan. Congressman, the vast majority of the data we 
collect is done through the normal course of business. When a 
guest uses our app on an iPod, when they sign up for an app 
called ``Cartwheel,'' we periodically append information to 
that on an existing guest, and very rarely, but from time to 
time we do buy some guest information to provide them 
promotions if we think they would benefit from the products and 
services that we provide.
    Mr. Yarmuth. Now, you have had a relationship with Amazon 
for a period of time. Could any of that information have been 
captured because of that relationship specifically? Is that 
irrelevant?
    Mr. Mulligan. It is my understanding that there was a 
separation of the information between Amazon's customers and 
our guests.
    Mr. Yarmuth. OK. Well, I yield back. Thank you for your 
testimony. I yield back, Mr. Chairman.
    Mr. Terry. OK. At this time the Chair recognizes the vice 
committee of the full committee, or vice chairman of the full 
committee, Marsha Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to 
thank you-all for your patience this morning. I cannot tell you 
how so many of our constituents have mentioned their 
frustration with the data breaches and their desire to get some 
clarity and some certainty in this process, and as you have 
heard me mention in the earlier questioning and opening 
statement, Mr. Welch, Ms. Schakowsky, and I are doing a data 
security and privacy working group to make certain that what we 
do when we do something on the issue, that we do it in the 
appropriate manner and that be allowed the flexibility and the 
nimbleness that is going to be needed. And Mr. Russo, you spoke 
well to the need for that.
    Mr. Kingston, if I could come to you, and going back to 
your testimony with the malware that was there in your breach, 
have any of the law enforcement agencies that are working with 
you on this, have they ever seen this type malware before, and 
what is the origin of that malware?
    Mr. Kingston. Congressman, we have been working very 
closely with law enforcement, specifically with the Secret 
Service, and what they have been able to share with us so far 
is that the malware is very, very, very sophisticated. As I 
said earlier in my testimony, had a zero detection rate by 
antivirus software, and it is not something that they have seen 
before. It was very specifically designed for an attack on our 
systems.
    Mrs. Blackburn. OK. So it was designed specifically for an 
attack.
    Mr. Kingston. Yes.
    Mrs. Blackburn. And do you know the origin yet?
    Mr. Kingston. They have not shared that with us. I am not 
sure at this time.
    Mrs. Blackburn. They have not. OK.
    Mr. Russo, when you look at this, and here is something 
designed specifically to attack and to take down their 
financial infrastructure, if you will, then what is your 
guidance to us as we seek to look at that data share, which is 
important, that information share, which is important. Mr. 
Zelvin spoke to that in the previous panel. What is your 
instruction to us? Because we know that the different agencies 
send out threats and updates on a regular basis, and you have 
something that is unique, so what is your instruction to us? 
And then the second question I have for you in the interest of 
time is what are the unique identifiers that you are seeing 
creep up in some of this, this malware?
    Mr. Russo. So, first of all, the council is a wonderful 
forum in which to share information. Companies give us feedback 
all the time as to what is going on. The forensic investigators 
tell us about trends that they are seeing, which all gets 
factored into creating these standards and making sure that 
they are not only good for today but good for what we see 
coming in the future.
    So, it has been our experience that the standards are very, 
very solid. We have a lot of history around this. I think we 
have heard two or three times, as I can recall, during the 
hearings the morning, that what we saw and what we continue to 
see are basic threats that are being exploited, very basic 
threats. You have heard me say, you heard Mr. Smith say about 
passwords being used and so on, SQL injection is another one, 
lest I get technical here, very, very basic things.
    Within the standards now, there are a myriad of ways to 
prevent this from happening and to prevent malware, as 
sophisticated as it may be, from getting into the system. So, 
at this point I don't have enough information in terms of what 
actually happened, but I can tell you, up until now, everything 
that we have seen in terms of these major breaches over the 
last 7 years has been exactly what the panel before us 
indicated, very, very basic exploits that easily, easily could 
have been defeated. So, until we actually have some solid 
information as opposed to what we are reading in the 
newspapers, we really can't make a determination as to what 
happened and if the standards need to be updated.
    Mrs. Blackburn. I hope you will come back to us. When you 
look at standards and compliance, and we know even going back 
to the T.J. Maxx breach, they were compliant, they just weren't 
secure, and there is a difference there.
    Mr. Mulligan, at Target, how much have you-all invested in 
secure networks?
    Mr. Mulligan. Over the past several years, we have invested 
hundreds of millions of dollars. Part of that has been in 
technology, segmentation, malware detection, intrusion 
detection and prevention, data loss prevention. Part of that 
has been in teams. We have over 300 team members responsible 
for information security. Part of that is in assessment.
    PCI is one assessment that we do certainly as part of the 
payment card industry. But we are constantly assessing 
ourselves, having other third parties come in and do 
penetration testing, benchmarking us against others and 
benchmarking us against best in class. And we train 370,000 
team members annually on the importance of information 
security, so we have a wholistic view and we have invested 
significantly.
    Mrs. Blackburn. OK. Mr. Kingston, how much has Neiman spent 
on security?
    Mr. Kingston. So, we have spent tens of millions of dollars 
on very specific security measures, and as Mr. Mulligan said, 
it is really a combination of technology as well as people and 
process. I think one of the things that we do at Neiman Marcus 
that is really important that I think the subcommittee should 
think about is the fact that we do annual security awareness 
training for all Neiman Marcus associates that access systems, 
and I think awareness is a big part of strong defense.
    Mrs. Blackburn. Yes. Well, my time is expired. I will yield 
back.
    Mr. Mulligan, I am going to submit a question to you for a 
written answer on the CVV security codes.
    Mr. Mulligan. Happy to respond.
    Mr. Terry. Thank you. And the Chair now recognizes another 
gentleman from Kentucky, Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you for coming. 
So, Mr. Russo, to follow up on what Ms. Blackburn asked, or you 
said, to answer her question, you said that these breaches, I 
guess the two that we are talking about today were basic?
    Mr. Russo. No, today's breaches, I don't know----
    Mr. Guthrie. I could have been defeated?
    Mr. Russo. We don't have enough information yet.
    Mr. Guthrie. You said that basically it could have been 
defeated?
    Mr. Russo. What we heard this morning from the other panel 
was all of the breaches up until now----
    Mr. Guthrie. OK
    Mr. Russo [continuing]. Have been basic security exploits 
that could have easily been prevented, and we don't actually 
know what the situation is yet from the latest breaches.
    Mr. Guthrie. OK. So, but because I knew that Mr. Kingston 
said that they had zero detection rate by their software. It 
didn't sound basic. So, I mean, OK, I am willing to clarify 
what you said then. But based on what you do know, were Target 
and Neiman Marcus compliant to the PCI standards?
    Mr. Russo. Unfortunately, they do not report their 
compliance to the council. The council, like many other 
security bodies, basically puts together the best standards 
that we possibly can. We are not responsible for enforcement 
or----
    Mr. Guthrie. Right. I knew that.
    Mr. Russo. Nor do people report their compliance to us.
    Mr. Guthrie. OK. So, there is no----
    Mr. Russo. We have no insight as to whether or not they 
were compliant or not.
    Mr. Guthrie. You can't assess whether they were meeting the 
standards or not.
    Mr. Russo. Absolutely not.
    Mr. Guthrie. So that is something to look at. So, one of 
the other previous panelists said basically, I can't remember 
the word, was retailers or business, but in essence she said in 
her testimony to get serious, it is time to get serious about 
this. You said you spent hundreds of millions of dollars, you 
spent tens of millions of dollars.
    How much do you think this incident in December and then 
January, first with Target, I know you are the CFO. I know you 
as the information officer, you may not know, but what do you 
think this has cost your bills in terms of dollars? Not on 
customer loyalty, customer anything, but just in terms of 
dollars.
    Mr. Mulligan. We don't have insight into that yet. We 
disclosed publicly, probably 3 weeks ago, that the losses as a 
result of this incident would be material to Target. I don't 
have visibility. The primary driver here is fraud. I don't have 
visibility of that from the majority of the financial 
institutions, but what I can tell you is this: of the 40 
million accounts that were taken, 6-and-a-half million of them 
or 15 percent were Target cards, and what we have seen is on 
our Target Red Card, the proprietary card, our Target debit 
card, there has been no additional fraud, and on our Target 
Visa card, which is a Visa card just like any other, we have 
seen very low levels of fraud. So, we will have more 
information as we go through the process.
    Mr. Guthrie. So Neiman Marcus, what kind of expense or cost 
has this been to your business?
    Mr. Kingston. We are still in the midst of our 
investigation, so you know, I don't have visibility to that 
yet.
    Mr. Guthrie. And then, Mr. Smith, we are hearing from two 
Fortune 500 companies, very sophisticated companies, that have 
sophisticated systems in place, it appears, and they are still 
breached by very sophisticated criminals. So what about the 
small guy? I know that is the kind of the area you look at, if 
you are, where I get gasoline and gas at the pump and a small 
locally-owned station, what processes are in place for these 
guys?
    Mr. Smith. Well, again, the PCI standards are across the 
board for any store who transmits or processes data. You know, 
the smaller merchants have a smaller platform to be attacked, 
right, so they are able to defend their smaller presence on the 
Internet. There are lots of, as Mr. Russo alluded to, basic 
security principles that they can put in place, relatively 
cheap to protect their network and their data. And there is a 
lot of information out there including on our Web site for the 
small merchants to, what technologies, what they should be 
putting out there.
    Mr. Russo. If I can interject.
    Mr. Guthrie. Sure.
    Mr. Russo. Being a small merchant is a very tough thing 
these days. You not only have to worry about shoplifting and 
somebody breaking into your store, but you now have to worry 
about data security.
    In an effort to make that a little bit easier, as Mr. Smith 
indicated, on our Web site we certify different solutions that 
they can go and choose. Not only do we certify different 
solutions in the form of payment applications, as well as POS 
devices that are secured and certified to be PCI compliant, but 
also, we train installers throughout the Nation so that a small 
merchant, as opposed to using his brother-in-law, to help 
install a piece of software can actually go out and pick 
somebody off this list to securely install this information for 
them.
    So we make it easier for the smaller merchant, but again, 
the small merchant area is a very, very big problem.
    Mr. Guthrie. Because they would be a portal into a whole--
--
    Mr. Russo. Absolutely.
    Mr. Guthrie. So one of the other panelists also said that 
there is a list of different things people can do and they will 
do some, but they won't do the others. Is that the case with 
your, did you look back and say, wow, there was something we 
should have known to do that we didn't do? Or is it, this was 
so sophisticated that it went around a very sophisticated 
system that you had. I guess I am out of time, I'm sorry.
    But one of the panelists earlier basically said that. Not 
necessarily your situation, but situations that there could 
have been a check box and they decided not to check because it 
cost money. I mean, that is what she said. Not word for word, 
but is that what you all found to be the case, or has it been 
so sophisticated that you had everything in place and you say, 
wow, I can't believe they can get around that? Or did you find 
something obviously you should have found.
    Mr. Terry. Go ahead. But then you are done, Brett.
    Mr. Guthrie. OK.
    Mr. Mulligan. Congressman, as I said, we invested hundreds 
of millions of dollars in technology and assessment. Part of 
the ongoing end-to-end review of our systems will provide facts 
when that is complete and there will be learning, certainly, 
and we will respond to those learnings.
    Mr. Guthrie. But there wasn't something obvious you didn't 
do that led to this?
    Mr. Terry. Brett?
    Mr. Kingston, answer.
    Mr. Kingston. I think at Neiman Marcus, we felt, and feel 
very good about the high standards of security that we had in 
place, and that we continue to have in place.
    Obviously, there will be lessons learned out of this, and 
certainly one of the takeaways so far, this is a very highly 
sophisticated attack.
    Mr. Terry. Mr. Johnson, you are recognized for 5 minutes.
    Mr. Johnson. Well, thank you very much, Mr. Chairman.
    And I, as I mentioned to the first panel, I spent my entire 
professional career as an IT professional. One of those stents 
was as the director of the CIO staff for U.S. Special 
Operations Command, and you don't have an environment that is 
any more concerned about network and computer security than our 
national security. I mean, that is paramount.
    So I understand the complexities that you folks have to 
deal with on a daily basis to address this and I can empathize 
with the struggles that you have.
    Just real quickly, just a few questions. Mr. Mulligan, why 
hasn't Target joined the financial services ISAC, the 
Information Sharing and Analysis Center?
    Mr. Mulligan. I don't know the answer to that specifically, 
Congressman. I can tell you we have a long history of sharing 
information with law enforcement as it relates to these type of 
threats, and we certainly believe that information sharing, a 
shared responsibility across all industries is essential to 
dealing with this type of evolving threat.
    Mr. Johnson. Is this most recent incident, has that given 
you thought to consider joining?
    Mr. Mulligan. Certainly, Congressman, and in fact, as I 
stated earlier, we have implemented at least one step of that 
with retailers for information sharing, but yours is another 
that we are absolutely open to.
    Mr. Johnson. What about large retailers like you folks? Do 
you think it is time for large retailers like you guys to 
consider having your own ISAC?
    Mr. Mulligan. We absolutely believe that information 
sharing is important, Congressman, absolutely.
    Mr. Johnson. OK, what about empowering law enforcement to 
share information with the private sector with respect to 
ongoing threats and attacks? Do you think that is important 
also?
    Mr. Mulligan. We do. We have had an ongoing relationship 
with law enforcement at many levels and have enjoyed a great 
relationship with them historically, and certainly during this 
period of time as well.
    Mr. Johnson. OK. Mr. Kingston, what are the systems that 
you had in place to guard against a data breach, and why did 
they fail in this case?
    Mr. Kingston. So Congressman, we had a multi-layered 
security approach and architecture in place, and I will just 
highlight some of the controls and different technologies. So 
we had network behavioral analysis and monitoring technology in 
place. We had network segmentation with the use of firewalls 
and controlled intrusion detection systems, two-factor 
authentication for remote access. We also deploy encryption 
technologies, and we also utilize tokenization as a method to 
protect and secure consumer information that is stored in our 
system.
    Mr. Johnson. So, and that sounds pretty robust. I mean, it 
is the traditional kinds of things that folks do to provide 
network and data security. Why do you think those things 
failed, just the sophistication of the attack?
    Mr. Kingston. So you know, with what we have learned so 
far, and again, there are still some important questions that 
we haven't answered in our investigation, but with what we have 
learned so far, it really points back to the malware being so 
sophisticated and customized to specifically evade those 
different technologies and detections. Just to give you an 
example, this particular malware was able to inject itself into 
known point-of-sale programs, so that it could disguise itself 
and continue to operate as if it was a normal program.
    And then it was able to delete itself and clean up its 
tracks, so very, very complex, very difficult to detect.
    Mr. Johnson. Yes, yes. You have emphasized the 
sophistication of the attack. You just talked about that, even 
customizing the malware so it wouldn't be detected by today's 
current antivirus programs. Can the criminals always stay one 
step ahead of us like they appear to be doing in this case? Is 
that a battle we are going to face?
    Mr. Kingston. Clearly, it is going to be difficult for us, 
both public and private sector. I certainly hope one day we get 
to a point where we can at least be on par, if not ahead of the 
criminals.
    Mr. Johnson. OK. Does your recent experience equip you to 
try some different techniques? Have you guys started thinking 
about how do we make sure that they can't get through, and then 
once they get through, that we can detect them?
    Mr. Kingston. I think, undoubtedly, with the things that we 
are learning through this investigation with the help of our 
forensic teams and with the help of law enforcement, there are 
definitely going to be things that we can consider to help even 
further strengthen the security that we have in place today.
    Mr. Johnson. Sure. Well, I have a gazillion questions, Mr. 
Chairman, and I don't think you are going to give me a time to 
ask them so I will yield back.
    Mr. Terry. Not a gazillion, no, but we will let you have 
one more after everyone else if you want to stay.
    Mr. Terry. Mr. Bilirakis, you are now recognized for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much.
    And I appreciate the panel's testimony today. And thanks 
for your patience as well.
    Mr. Mulligan, thank you again for testifying. In your 
testimony, you note that December 16th and December 17th, you 
began notifying the payment processors and card networks, and 
on December 19th, made a public announcement regarding the 
breach; and is that true?
    Mr. Mulligan. That is accurate.
    Mr. Bilirakis. OK, all right. Given that 47 states as well 
as the U.S. and the U.S. territories have developed data breach 
notification laws, often with different requirements, standards 
of harm, and definitions of personally identifiable 
information, did you or your company find it difficult to 
navigate through these different standards?
    Mr. Mulligan. Our focus, once we realized the malware was 
on the system, we had two parallel tracks that we were 
pursuing. The first was to shut down the malware, and then 
assess what it was doing, and once we verify that it was taking 
payment card information, we wanted to notify the processors, 
and the brand so that they could begin their fraud deduction 
and fire up their fraud detection policy.
    The second path was on providing public notice as soon as 
we had the scope, we had actionable information for our guests, 
and had built the resources to respond what we knew invariably 
would be a significant call volume.
    Mr. Bilirakis. Well, again, I want to ask the question: Was 
it difficult to navigate this process since, what is it, 47 
different States have different laws, and I know you are 
everywhere around the U.S.
    Mr. Mulligan. It is my understanding that the majority of 
those States' statutes provide for broad public disclosure. We 
provided broad public disclosure on the 19th. As I am sure you 
know, we were on the front page of every newspaper on December 
20th, and so that was our approach. We also provided notice to 
17 million guests by email for the guests that we had.
    Mr. Bilirakis. OK, should there be, in your opinion, a 
National standard with regard to notification, notifying 
customers?
    Mr. Mulligan. Certainly, one standard would be easier to 
follow than 47, but we complied with all 47 state statutes.
    Mr. Bilirakis. Thank you.
    Mr. Kingston, the same question, should there be a National 
standard as far as notifying customers?
    Mr. Kingston. I mean, I don't have an opinion on whether 
there should be a National standard. I would say that it is 
important that there be flexibility within whatever legislation 
standard you have, because I do think, as was noted in the 
first panel, these investigations, these events are different, 
and on a case-by-case basis, need to be handled differently.
    Mr. Bilirakis. Anyone else on the panel wish to comment on 
that? Should there be a national standard?
    Mr. Russo. Outside the purview of the counsel.
    Mr. Bilirakis. OK. Next question, in 2015, liability for 
fraud losses will be to shift from card issuers to merchants. 
Mr. Mulligan, you said you are accelerating chip technology for 
Target's red cards. Do you believe the switch to chip-and-PIN 
can save money in the long run?
    Mr. Mulligan. We have been advocates to moving to chip-
enabled technology, and chip-and-PIN technology over a long 
period of time, and while it certainly doesn't resolve all of 
the issues, it is a significant step forward for our industry 
in ensuring that that data is safe. So we have been proponents. 
We are in the middle of rolling it out. We have 300 stores 
already deployed with guest payment devices, what we call, 
where you read the cards. We will finish that by the fourth 
quarter of this year, and early next year all of our credit 
products, the payment products we offer will also have chips 
embedded on them.
    Mr. Bilirakis. Very good. Will it save money in the long 
run?
    Mr. Mulligan. We believe so.
    Mr. Bilirakis. All right, very good, Mr. Kingston.
    Mr. Kingston. Sir, we are actively evaluating PIN-chip 
technology at Neiman Marcus, and we will certainly, if 
consumers are issued cards with PIN-chip in them, be ready and 
able to support those transactions.
    In addition, we are also looking at other technologies that 
can also protect Neiman Marcus consumers that shop online. We 
have a very robust online business which PIN chip doesn't 
necessarily address, as well as the growing trend for mobile 
payment transactions. So we believe that while PIN chip 
technology is certainly going to enhance security, that there 
are other solutions out there that we also will evaluate.
    Mr. Bilirakis. Thank you.
    Again, for Mr. Smith, do you believe it will save money in 
the long run? You know, the switch to chip and PIN?
    Mr. Smith. I can't really comment on the savings, but you 
know, any security technologies that can be deployed to protect 
cardholder data, you know, we would be supportive of.
    Mr. Bilirakis. Mr. Russo?
    Mr. Russo. I agree with Mr. Smith. Certainly, it will be 
yet another level of security that is important.
    Mr. Bilirakis. And that is our priority.
    Thank you very much, I appreciate it. Thanks for your 
question.
    I yield back.
    Mr. Terry. Thank you, Mr. Bilirakis. Now, you may think 
this is over, but we have agreed between us to have a second 
round. It is just that everybody has left but us two. So the 
lucky part is that you are only going to get two extra 
questions.
    So my question to you is going to be to Mr. Mulligan and 
Mr. Kingston, on specifics about audits and when they are done, 
and when you last did them before the breaches were discovered.
    Mr. Smith, I want you to answer it more not Neiman Marcus, 
or Target-specific, but what is appropriate for audits and when 
they should be done, and how frequently pursuant to your 
expertise and professional opinions.
    So with that, as I understand, the process or norms are 
that you do audits throughout the year on your security 
systems. So how often do you do those and when was the last 
time an audit was done on your security before you discovered 
the current hacks and malware that brings you before us today?
    And also, do those audits include password integrity and 
possible phishing, procedural process, or process deficiencies.
    Mr. Mulligan?
    Mr. Mulligan. We have a robust audit plan or assessment 
plan, I would call it more broadly. Certainly it starts with 
PCI assessment, which is done annually. It takes 9 months. We 
have that performed by a third party. That is one step.
    But beyond that, we have ongoing assessments, Congressman, 
penetration testing, assessing our technology, the people, the 
processes, the controls we have in place. It would be all-
encompassing. And we have a multiple of those every year.
    We had a third-party global firm assess us against Fortune 
100 retailers just last year and we were at or better than the 
technology deployed in those retailers. So it is an ongoing 
part of our data security program.
    Mr. Terry. So the other two parts of that, though, was when 
was the last one done, and does that also include password 
integrity?
    Mr. Mulligan. I am not sure. I can't give you the exact 
date of our last one. It would include password protection 
because it looks broadly at all of our processes. I am happy to 
get you a date.
    Mr. Terry. All right, thank you. Mr. Kingston.
    Mr. Kingston. Chairman, I will answer the last part of the 
question first. Our audits do address password integrity, but 
we have several different forms which we audit and assess our 
security controls, so I will start with periodic audits of IT 
general controls, which include password strength and controls. 
We also do a quarterly scan, a penetration scan of the 
perimeter to see what potential vulnerabilities or risks are 
coming into the networks as well as the internal networks. And 
then the last part of the assessment that I point out is under 
PCI.
    Mr. Terry. All right. Mr. Smith?
    Mr. Smith. You know, we conduct annual assessments under 
PCI for our clients all the time. In addition to that, working 
with our clients as partners, we do active penetration testing, 
active testing all the time depending on if there is an 
incident or if there is a security issue, or there is an area 
that they want tested. We are constantly going in and out of 
organizations, you know, frequently to test their systems.
    Mr. Terry. How often?
    Mr. Smith. I think it is going to depend on a PCI 
compliance. It is an annual testing.
    Mr. Terry. All right.
    Mr. Smith. But as part of that, we do frequent, you know, 
vulnerability scanning.
    Mr. Terry. OK.
    Mr. Smith. But again, if you are looking at beyond that, we 
are actively involved with many of our clients doing active 
penetration testing on an ongoing basis----
    Mr. Terry. All right.
    Mr. Smith [continuing]. Through all of their applications.
    Mr. Terry. Thank you. Ms. Schakowsky, you are recognized.
    Ms. Schakowsky. Thank you.
    I really do want to thank the gentlemen representing Target 
and Neiman Marcus for your patience today and for coming here, 
as the chairman said, willingly, and sitting through a long 
hearing. So I think that should be noted, and for your openness 
and willingness to cooperate. But I have been disturbed, not 
necessarily by what you have done, but there have been some 
efforts in the courts to undermine the ability of government to 
actually act in the area of data security.
    Since 2002 the Federal Trade Commission has applied its 
enforcement authority under Section 5 of the FTC act to the 
area of data security by bringing legal actions against 
companies that fail to reasonably protect customer data. Last 
week the FTC announced its 50th data security settlement.
    But in the court, there is a case FTC versus Wyndham that 
is currently pending in the U.S. District Court for the 
District of New Jersey, and Wyndham is challenging the FTC's 
use of its unfairness authority to insist that companies have 
minimum data security standards in place. And an amicus brief 
has been filed by the Retail Litigation Center, an arm of the 
Retail Industry Leaders Association, which I know at the very 
least that Target is a member of, together with the U.S. 
Chamber of Commerce, the American Hotel and Lodging 
Association, and the National Federation of Independent 
Businesses, which are in support of that position.
    So I am just wondering from both of you, if you are part of 
those amicus briefs through these associations, and whether 
your companies agree with the position taken by Wyndham and 
that the FTC lacks authority to enforce reasonable data 
security measures. Mr. Mulligan?
    Mr. Mulligan. I can begin. I should first note, Mr. 
Chairman, to your question about the last assessment. We were 
found PCI-compliant on September 20th of 2013.
    To your question, I am not familiar with that. What I can 
tell you is that we are committed to making this right, and we 
are committed to engaging on this topic. And we are willing to 
do so independent of RILA. Target is willing to engage on this 
topic.
    Ms. Schakowsky. Thank you, Mr. Kingston.
    Mr. Kingston. So I am not intimately familiar with that 
legislation or those issues either, but----
    Ms. Schakowsky. This is a court case.
    Mr. Kingston. And I apologize, I am not familiar with it. 
But I will tell you that Neiman Marcus supports having 
standards in place for data security and which is why we are 
actively a participant in the PCI standards and assessment 
process, and will often look to not only meet those, but exceed 
them.
    Ms. Schakowsky. Let me just finish in saying I hope both of 
you would just talk with your companies and see if you are part 
of something that would undermine the ability of the FTC to 
protect consumers in cases of data security breaches. Thank 
you.
    I yield back.
    Mr. Terry. And that does conclude all of our questions.
    You can start wrapping up, but we will probably submit 
questions, or at least every one of us have the right to send 
you questions. We will try and get those to you if there are 
any to you individually within 14 days, and ask the same amount 
of time to return an answer.
    Now, just some general business here. I ask unanimous 
consent to include the hearing record statements from the 
following four organizations: Credit Union National 
Association, Independent Community Bankers of America, National 
Retail Federation, Retail Industry Leaders Association. All of 
these have been shared with the minority, without any 
objection?
    Ms. Schakowsky. No.
    Mr. Terry. Hearing none, so ordered. Now, we are adjourned. 
Thank you gentlemen.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
  
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
